<html>
<title> - THREATS TO NATIVE WILDLIFE SPECIES</title>
<body><pre>[Senate Hearing 111-1201]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 111-1201

                   THREATS TO NATIVE WILDLIFE SPECIES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                AND THE

                       SUBCOMMITTEE ON OVERSIGHT

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2009

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works
                                 
                                 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                 



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________



                        U.S. GOVERNMENT PUBLISHING OFFICE
95-159 PDF                   WASHINGTON : 2016                        
               
_______________________________________________________________________________________              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>  
              
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                                 ------                                

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
FRANK R. LAUTENBERG, New Jersey      MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
                                 ------                                

                       Subcommittee on Oversight

               SHELDON WHITEHOUSE, Rhode Island, Chairman
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
KIRSTEN GILLIBRAND, New York         DAVID VITTER, Louisiana
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JULY 8, 2009
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     3
Crapo, Hon. Mike, U.S. Senator from the State of Idaho...........     4
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     5
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     6
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York     7
Levin, Hon. Carl, U.S. Senator from the State of Michigan........     9
Nelson, Hon. Bill, U.S. Senator from the State of Florida........    11
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   163
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont, 
  prepared statement.............................................   164

                               WITNESSES

Frazer, Gary, Assistant Director for Fisheries and Habitat 
  Conservation, U.S. Fish and Wildlife Service...................    15
    Prepared statement...........................................    18
    Responses to additional questions from:
        Senator Boxer............................................    33
        Senator Lautenberg.......................................    35
    Response to an additional question from Senator Sanders......    38
    Responses to additional questions from Senator Vitter........    39
Clay, Bill, Acting Associate Administrator, Animal and Plant 
  Health Inspection Service, U.S. Department of Agriculture......    40
    Prepared statement...........................................    42
    Response to an additional question from Senator Boxer........    48
Ruiz, Gregory, Senior Scientist, Smithsonian Environmental 
  Research Center, Marine Invasions Research Laboratory..........    74
    Prepared statement...........................................    76
Humphries, Rebecca, Director, Michigan Department of Natural 
  Resources......................................................   110
    Prepared statement...........................................   112
Torgan, John, Narragansett Baykeeper, Save the Bay, Inc..........   139
    Prepared statement...........................................   141
Hill, Jeffrey E., Assistant Professor, Department of Fisheries 
  and Aquatic Sciences, University of Florida....................   145
    Prepared statement...........................................   148
    Response to an additional question from Senator Vitter.......   157

                          ADDITIONAL MATERIAL

Letter to Senators Cardin and Whitehouse from Louisiana Governor 
  Bobby Jindal...................................................   165
Photos of Burmese pythons........................................   167
Photo of a bat with white-nose syndrome..........................   171
Photo of a nutria................................................   172
Monie Bay pre nutria eradication project--May 2007...............   173
Monie Bay pre nutria eradication project--May 2009...............   174

 
                   THREATS TO NATIVE WILDLIFE SPECIES

                              ----------                              


                        WEDNESDAY, JULY 8, 2009

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Water and Wildlife,
                                 Subcommittee on Oversight,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin and Hon. Sheldon Whitehouse (chairmen of the 
subcommittees) presiding.
    Present: Senators Cardin, Whitehouse, Lautenberg, Barrasso, 
Crapo, and Gillibrand.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. The subcommittees will come to order.
    Today we are having a joint subcommittee hearing of the 
Environment and Public Works Committee of the Water and 
Wildlife and Oversight Committees. I want to thank my colleague 
and friend, Senator Whitehouse, for arranging for this joint 
hearing with the Water and Wildlife Committee that I chair. He 
chairs the Oversight Committee. And we want to thank Senator 
Barrasso for his help in arranging this morning's hearing.
    We are talking about the threats to native wildlife 
species. And we are pleased that two of our colleagues have 
joined us: Senator Levin, in talking about the threats to the 
Great Lakes; and Senator Nelson, who will talk about the unique 
wildlife and ecosystems in Florida and the python which he 
brought, it looks like the skin, with him today to demonstrate 
the danger to the ecosystems in Florida.
    The threat to native wildlife comes from many sources. 
Today we will be talking about two of those, one dealing with 
invasive species, the other dealing with diseases.
    The release of invasive species into the local environment 
presents a real risk to our environment. The Burmese pythons in 
Southern Florida have caused a major problem, and our colleague 
Senator Nelson will be talking about that. In my own State of 
Maryland, we have had the snakehead fish which has been 
released that has caused major problems.
    These are wildlife animals and fish that are just released 
into the wild because they are mainly taken as pets, people get 
tired, and then think they are doing a favor to release them to 
the wild. They cause huge problems with the native wildlife.
    We have a disease called white-nose syndrome in the 
Northeast with the bat colonies. We will be talking about those 
issues.
    What we have done is try to manage these invasive species, 
and that continues to be a great challenge. It is expensive, 
and it is a challenge. In my own State of Maryland, we have 
dealt with the nutria. The nutria is a furry animal that was 
originally brought into Maryland and, I believe, also 
Louisiana, because of its commercial value. They thought it 
could be used, the skin could be used, for commercial reasons. 
It was a commercial activity.
    Well, it did not work very well, so they decided to release 
the nutria to the wild. And in Louisiana and Maryland, it is 
creating a huge problem. They literally eat the grasses and 
destroy the wetlands that are critically important for the 
ecosystems that are protecting the species as well as 
eliminating the filtering system for the water quality. In the 
Blackwater Wildlife Refuge, which is on the Eastern Shore of 
Maryland, we have lost 5,000-plus acres of wetlands as a result 
of the nutria. That has a direct loss to the local economy and 
to the fisheries of $4 million per year.
    Well, in 2000, Congress developed a public-private 
partnership to deal with the nutria population, and it has been 
somewhat successful. But there is more work that needs to be 
done, and we will have a chance to talk about during today's 
hearing.
    I know that Senator Lautenberg will be talking about the 
bats, a keystone species in the food web that help to control 
insect and pest populations. They are vitally important to our 
agricultural community in eating the bugs that would otherwise 
feed on our crops. Well, there is a disease, white-nose 
syndrome, which is causing us to lose a lot of our bat 
colonies, and we are struggling to understand this disease. But 
we do know that it is related to human activity, and we need to 
talk about that.
    We know that in certain animals and birds, they carry 
diseases from imported animals and birds that can affect human 
health, such as the West Nile and avian flues, just to mention 
two by example.
    Our first priority should be to prevent the introduction of 
invasive species or diseases into America. I hope that during 
the course of this hearing we will have a chance to talk about 
our strategies as far as border control is concerned. Do we 
have adequate laws that deal with animals and wildlife that 
come into America? Do we need additional resources? It would be 
far more productive to stop the problems at the border than 
trying to clean up the problems once they get to our shores, 
and I hope during today's hearing will have the chance to talk 
about that.
    I am pleased to call upon the Chairman of the Oversight 
Subcommittee of the Environment and Public Works Committee, 
Senator Whitehouse.
    [The prepared statement of Senator Cardin follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    I want to thank my colleague Senator Whitehouse for his 
assistance in co-chairing this important hearing to examine the 
threats disease and invasive species pose to the country's 
native wildlife.
    I also want thank our distinguished colleagues, Senator 
Nelson and Senator Levin, for joining us today. Senator Nelson 
is especially interested in addressing specific threats to the 
unique wildlife and ecosystems of his home State of Florida, 
and Senator Levin will be adding his perspective on the threats 
to the Great Lakes.
    We also want to thank our Agency and expert witnesses for 
coming before our subcommittees.
    The recent emergence of Burmese pythons in South Florida 
and snakehead fish in the Chesapeake watershed are a direct 
result of people who simply did not know better releasing these 
invasive species into the local environment. White-nose 
syndrome in Northeastern bat colonies, which we need to study 
and learn more about, has had a devastating impact on these 
native species.
    These are just some of the numerous threats to native 
species that motivated our subcommittees to examine a host of 
both new and persistent diseases and invasive species 
threatening the country's native wildlife populations. We hope 
to learn what we are doing well and what we can do better to 
curb these problems.
    Managing the threat of invasive species continues to be one 
of the greatest challenges facing U.S. Fish and Wildlife 
Service refuge managers.
    I know it has not been easy, but in some instances we are 
seeing real progress. For nearly six decades at the Blackwater 
National Wildlife Refuge in Maryland, nutria have been killing 
wetland grasses that provide vital habitat for native 
shorebirds, muskrats and blue crabs, not to mention the role 
these grasses play in maintaining water quality.
    Nutria are responsible for the loss of more than 5,000 
acres of wetlands in the Blackwater refuge alone. The loss of 
these wetlands, that are vital to the fishery, was estimated to 
cost Maryland's economy nearly $4 million annually.
    In 2000, Congress established a Federal funding source to 
develop a public-private partnership program to address nutria 
in Maryland. The partnership has implemented a successful 
effort to manage the species. Healthy wetlands are returning to 
places where nutria have been removed. But the job is not yet 
done.
    Bats are a keystone species in the food web that help 
control insect and pest populations. They are vital to 
agricultural food growers by eating bugs that feed on crops. 
Since 2006, hundreds of thousands of hibernating bats have died 
from white-nose syndrome. Without bats we face the real 
possibility that certain insect species could boom out of 
control, threatening crops as well as human health.
    State wildlife managers are struggling to understand the 
full nature of the disease. This struggle is further hampered 
by the lack of capacity and resources wildlife managers have to 
work with.
    The spread of the disease to such a wide range of locations 
may be linked to human activity. Exploring caves that have 
infected bats may inadvertently be spreading the fungus. The 
rapid spread and the rate of morbidity caused by white-nose 
syndrome requires rapid action be taken.
    West Nile and avian flu are examples of imported exotic 
animal diseases with strains that can infect humans.
    Our panelists have been on the front lines doing the 
research and implementing programs on the ground to address 
these problems. You know what works and what does not work when 
it comes to stopping the spread of established diseases and 
invasive species. I look forward to hearing your 
recommendations. We all know that an ounce of prevention is 
worth a pound of cure, so I hope our witnesses will focus on 
how to stop these threats rather than simply discuss ways to 
manage them.
    Consideration must be given to preventing the next nutria 
or snakehead invasion and keeping animals infected with the 
next avian flu from ever reaching the U.S. in the first place.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you very much, Ben. I am 
delighted to join you in this hearing. I appreciate your 
leadership in convening it.
    I welcome Senator Carl Levin of Michigan and Senator Bill 
Nelson of Florida here, who will be our opening presenters. I 
appreciate very much that you have taken the trouble to attend, 
and I am glad to be joined by so many colleagues here.
    This is a significant issue. Two factors drive it. One is 
global commerce, and the other is a changing climate. And 
whether, as Senator Cardin indicated, the invasive species are 
ones that are brought in lawfully and then escape into the wild 
and acclimate themselves to this new environment, or whether 
they are hitchhikers on the stream of global commerce and come 
with shipping and packaging inadvertently and make their homes, 
or whether they simply find that as climate changes they are 
able to expand into new areas where we have not experienced 
them before, it creates very significant issues. And I am very 
pleased to participate in this hearing.
    I want to mention that a very prominent Rhode Island 
environmentalist, John Torgan, is here and will be presenting 
in the second panel, and I look very much forward to his 
participation.
    I have to warn everybody that I am in my waning days on the 
Health Committee and we are marking up the healthcare bill as 
we speak. So, I will be in and out of the hearing. But I 
appreciate very much and take a keen interest in the topic that 
you have brought to our attention, Senator Cardin.
    Thank you.
    Senator Cardin. Thank you.
    Senator Crapo, the ranking Republican on the Water and 
Wildlife Subcommittee.

             OPENING STATEMENT OF HON. MIKE CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman, and I 
appreciate the fact that both of our Chairmen here have called 
this joint hearing and are bringing attention to this important 
issue.
    As you have already well indicated, Senator Cardin, this is 
a very, very critical issue in I think probably all 50 States 
where we face the question of what kind of management we need 
to undertake to effectively deal with invasive species. And 
Idaho is certainly one of those States that has its share of 
issues.
    In Idaho, a number of the problematic invasive species are 
things like the yellow star thistle, the quagga mussel, cheat 
grass, bark beetles and your Asian millfoil, to name just a 
few. One of these issues that we have in Idaho is that, because 
such a large percentage of our State is owned by the Federal 
Government, it is more than half, closer to two-thirds of our 
State is Federal land, the activities and enforcement of the 
Federal Government and the agencies that manage these lands are 
critical to our ability to control and manage these invasive 
species.
    So, among the many other different types of issues that we 
face, one of them is simply the interaction at the different 
levels of government, between State and Federal, as well as 
local governments, to deal with this and, frankly, the private 
citizens as they have responsibilities as well.
    Again, I thank you for your attention to this. I know there 
is legislation in several different forms being considered that 
can significantly change the way that we are approaching these 
efforts to control invasive species, and I have not yet reached 
a conclusion in my own mind as to whether the proposed changes 
are going to be an improvement or not. But it is important for 
us to evaluate these proposals as you are doing here today and, 
again, I appreciate your bringing attention to these issues.
    Senator Cardin. Well, thank you.
    Senator Barrasso, the Ranking Republican on the Oversight 
Committee.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Well, thank you very much, Mr. Chairman, 
for calling this important hearing. I am very pleased that we 
are going to be here today discussing invasive species and the 
impact on native wildlife. I welcome our guests as well.
    In Wyoming, just as in the other States we have heard 
about, we do have a number of invasive species issues. 
Saltcedar and Russian olive trees severely impact water 
availability for farmers along the North Platte River. Cheat 
grass, juniper and other invasives threaten the sage brush 
ecosystem that our sage grass depends upon. Our State is also 
on the watch for the potential threat of zebra mussels, which 
is a problem I already know is plaguing the Great Lake States. 
Noxious species are also a threat on native species in Wyoming.
    Wyoming faces an urgent problem, as they do in Idaho, for 
the bark beetle infestation. In the Medicine Bow National 
Forest, almost a half-million acres of these trees are infected 
already by bark beetles. We have over 9 million acres of 
national forest lands in Wyoming, and a Forest Service analysis 
shows this epidemic doubled in size between 2007 and 2008.
    These beetles destroy our forests and leave nothing but 
dead timber standing in the wake. This represents a clear and 
present threat to public land users, to communities, and to 
homeowners. We have mountains of kindling just waiting to burn. 
This is not a safe situation for the communities in and around 
these mountains. So, we must go into the forests, remove some 
of this dead timber, and reduce the risk of catastrophic fire.
    The threat to our forests and the species that inhabit 
those forests are very real for Western States, and more must 
be done to address this threat.
    Now, in terms of regulating invasive species from foreign 
countries, I do have a number of concerns. We have a very 
limited number of resources available. We need to put those 
resources where they will do the most good. We have laws on the 
books that regulate the importation of species. We need to make 
sure that the funding is there to ensure that these laws are 
properly enforced and that the agencies are properly staffed. I 
would not want to pass additional legislation that would in any 
way hurt our economy, including our pet economy, our sport 
fishing economy, or our farming industries.
    Let us not forget that, historically, the majority of 
livestock and crops in the United States are non-native species 
to North America. Many breeds of cats and dogs are non-native 
to the States, as are many of the breeds of fish that we use to 
stock our lakes, our reservoirs and our ponds for sport 
fishing. So, to this day, species are brought from overseas for 
these and other industries.
    Most of these species, if left unchecked and not properly 
managed, can cause significant damage to the surrounding 
ecosystem. These species have been vital to key industries in 
our economy and to pet owners and recreationists across the 
country.
    I am looking forward to the testimony today. I have a very 
open mind on this and thank the Chairman for holding the 
hearing.
    Senator Cardin. Thank you very much.
    Senator Crapo.
    Senator Crapo. Mr. Chairman, I just wanted to indicate that 
I, too, have another hearing right now, a climate change 
hearing in the Finance Committee, so I will also be moving back 
and forth.
    Senator Cardin. I pointed that out, that I know members 
will be coming in and out because of the commitments for other 
committees, and every member's opening statement will be made 
part of the record.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    When you see our colleagues here from other States, from 
Western States as well as those of us from the Eastern side, 
joining together, we know that we have a problem of serious 
magnitude. I appreciate greatly your holding this hearing about 
threats to animals and ecosystems across the country from 
changing climate, vanishing habitats and invasive species.
    Now, as you know and mentioned, and I appreciate it, I am 
particularly concerned about a threat that could wipe out an 
entire bat population from New Hampshire to Virginia. One might 
react less concerned about bats. They are typically thought of 
as an ugly little thing that is often rabid. But nothing could 
be more invalid.
    The threat to their population is a fungus called white-
nose syndrome. Since it first surfaced in 2006, it has spread 
from cave to cave, leaving 90 to 100 percent of bat populations 
in some caves dead or dying. And since bats are slow breeders, 
scientists fear that the white-nose syndrome could cause many 
bat species to go extinct. Over the last two winters, more than 
1 million hibernating bats have died.
    Now, at one bat cave in New Jersey, the Hibernian Mine, 
which I entered for my own familiarization with that 
population, there are normally 30,000 bats hibernating. As of 
April, this past April, only 750 bats were found alive there. 
The thing that struck the great alarm was the number of dead 
bats lying all over the place.
    We have got to stop the spread of this disease. We are 
dealing with a major threat to an entire ecosystem, potentially 
able to cause major environmental and economic problems, as my 
colleagues have discussed, with their non-invasive species. 
This is not a non-invasive species, but the disease is a 
threatening one to that particular species.
    Bats are on the front line of defense in protecting the 
public's health and our crops. They prey almost exclusively on 
insects, such as mosquitoes, which spread disease, and moths 
and beetles as well, which damage crops. A single bat can 
easily eat more than 3,000 insects in a night, and an entire 
colony will consume hundreds of millions of insects. It is said 
that a single bat will eat enough insects to be half its 
weight. So, it is a pretty voracious and very important 
species.
    Bats also reduce the needs for pesticides which costs 
farmers billions of dollars every year and can be harmful to 
ourselves. With fewer bats, there are more mosquitoes to breed 
disease, more insects to destroy the crops grown on New 
Jersey's farms, threatening the livelihood of our farmers, and 
damaging our economy.
    And the problem is not limited, as you know, Mr. Chairman, 
to New Jersey. This serious threat to our health, environment 
and economy is repeating itself all along the East Coast. We 
need to act fast, and we need help from the Administration.
    In May, along with Senate and House colleagues, I sent a 
letter to Interior Secretary Ken Salazar requesting emergency 
funding for research into the cause of white-nose syndrome, and 
to develop a solution to stop its spread. I look forward to the 
Secretary's response.
    Now, some of the witnesses on this panel have experienced 
fighting the spread of diseases like white-nose syndrome and 
helping species survive such threats. I look forward to hearing 
their ideas on how we can save the bat population in New Jersey 
and nationwide. Much is at risk. And the bats have become more 
beautiful as we learn more about them.
    Thanks very much, Mr. Chairman.
    Senator Cardin. Thank you.
    Senator Gillibrand.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Mr. Chairman.
    I appreciate the remarks of my colleague from New Jersey.
    The issues that we are addressing today are about invasive 
species. But the reason why it is so important is because it 
fundamentally affects our economy, it fundamentally affects our 
health and well being, and it fundamentally affects the costs 
of having to address these invasive species at a time when we 
have record high unemployment and enormous burdens on our 
municipalities and towns and local governments.
    When they have to address some of these invasive species, 
those are costs that will have to be spent on addressing the 
invasive species as opposed to other priorities that we have. 
So, these are significant issues for our economy.
    I will start with the white-nose bat syndrome. One of the 
reasons why it is so important, just as Senator Lautenberg 
said, is that because bats eat mosquitoes, in particular, and 
other insects, they are very important to keeping our 
communities safe.
    One of the biggest threats we had around New York State was 
the West Nile virus and I watched in many, many towns, where we 
sprayed towns to kill mosquitoes to prevent our children from 
getting the West Nile virus. It was a significant expense for 
local municipalities and local towns.
    Without the natural order of things, the natural life 
cycles and many of the roles that bats and insects and other 
species play, if we do not have the natural order of things, 
there is much in disarray and it creates enormous expense and 
risk. So that is one area.
    The second area is that bats also help pollination, and 
that brings to mind another problem, the colony collapse 
disorder. The bee populations are being seriously decreased, 
all across America and the world. In fact, 36 percent of bee 
colonies were reported to be wiped out in the United States 
because of the colony collapse disorder.
    If you do not have bees, and you do not have bats, you do 
not have pollination. If you do not have pollination, you do 
not have fruits and vegetables in America. If you do not have 
fruits and vegetables in America, we have a serious national 
security risk to our food chain or our food supply. These 
issues are critical to America's safety, from an agricultural 
safety perspective, a national security perspective, and an 
economic perspective.
    We also have other great costs in New York State because of 
some of our invasive species because we have so many natural 
resources in our lakes. We have the Great Lakes, we have the 
Adirondack Lakes, we have lakes all across New York. And a 
number of the species are particularly threatening to our 
economy of tourism in these lakes.
    Whether we are looking at millfoil, which was mentioned by 
my colleague Mr. Barrasso, or zebra mussel, what these kinds of 
invasive species do is go so far as to clog drainage pipes, to 
clog intake pipes, to clog damns, to really affect tourism. 
Those are all of significant importance to our communities for 
our clean water and for economic growth for our communities. 
So, many of these invasive species must be addressed.
    And the last group that I would like to just touch on is 
some of those that affect our timber industry. We have the 
Asian longhorn beetle and we have the cyrus wood wasp. Both of 
them are extremely expensive to eradicate. But they must be 
eradicated because, if they are left unchecked, they will 
destroy the timber industry, they will destroy a lot of our 
forestry, which will undermine many other economic issues like 
tourism.
    For example, the Asian longhorn beetle, it has cost more 
than $180 million to eradicate it in the suburbs around New 
York City so that it does not spread toward the Catskills and 
the Adirondacks where it could be devastating to our tourism 
and timber industries.
    So, I am very appreciative of this hearing because, you 
know, these are very serious economic, health and agricultural 
impacts that affect not only the livelihood of New Yorkers, but 
the health and well being of our children.
    I appreciate your focusing attention on these very 
important issues.
    Senator Cardin. Well, I think each of the members' opening 
statements points that we have a common challenge around the 
Nation on dealing with the protection of our native wildlife 
species, and we look forward to trying to work together to 
figure out what we can do in a constructive manner.
    Our first panel includes two of our colleagues that are 
very actively involved on this issue, Senator Carl Levin from 
Michigan who has been a leader in regards to the Great Lakes, 
and Senator Bill Nelson from Florida, who has been very 
actively involved in the Everglades and preserving those 
issues.
    Senator Levin.

             OPENING STATEMENT OF HON. CARL LEVIN, 
            U.S. SENATOR FROM THE STATE OF MICHIGAN

    Senator Levin. Thank you, Chairman Cardin and colleagues, 
for inviting us to testify very briefly and to make an 
introduction.
    As the Chairman mentioned, I represent Michigan, a Great 
Lakes State. Invasive species have done severe damage to our 
Great Lakes as well as to the land mass of Michigan. Everything 
from zebra mussel, which a number of you have mentioned, to the 
emerald ash borer which are destroying ash trees. We have 180 
invasive species identified in the Great Lakes alone.
    I was thinking about bringing in a zebra mussel, by the 
way, but then I had word that Senator Nelson might bring in an 
exhibit which would make our poor zebra mussel look so puny by 
comparison that you would think it would not be a problem.
    [Laughter.]
    Senator Levin. Let me just mention, I am not going to tell 
this panel and these two subcommittees about the problems of 
invasive species. You all know them. You have them in your 
States. You have all made reference to them in your opening 
statements. I just would reinforce one point that you made, 
which is the universality of the problem, at least in terms of 
all of our States.
    The zebra mussels started in the Great Lakes. Thirty States 
are now infested with zebra mussels. Like global warming, these 
things do not stay in one place.
    Second, the solution, at least one of the key remedies, 
lies in your hands. That is to adopt a significant ballast 
water treatment technology requirement for our ships. Most of 
our invasive species in the Great Lakes States come in through 
the water. In the ballast is our invasive species that come in 
from other places. And when that ballast is exchanged in the 
Great Lakes, it drops these invasive species in the Great 
Lakes, including zebra mussels.
    You had under your consideration, as has the Commerce 
Committee had under consideration for many years, bills which 
would require ships to have new technologies to destroy the 
species instead of just being to remove or transfer ballast 
from saltwater to fresh water and so forth. We actually have a 
technology to destroy the species.
    There has been a conflict in two bills. One bill, which I 
think has been favored by many members on this committee and 
these two subcommittees, basically would allow the States to 
adopt a higher technology over the years than the national 
standard which we would start with.
    The Commerce Committee, and I do not want to generalize 
here because I am not sure it applies to every member, but in 
general, there is a Commerce Committee bill, I will identify 
it, which says we are going to have a national standard, and we 
are then going to let that standard apply for a reasonable 
period of time without the shipping companies facing the 
possibility that States will up the ante.
    This is a traditional conflict. It is the not the first 
time that we have faced this kind of a conflict. We have it all 
the time. But it needs to be resolved. And I believe the right 
resolution is for us to adopt a tough national standard, and 
then to give the shipping industry a period of repose. They 
will be guaranteed that there will not be any increase in that 
standard for a reasonable period of time.
    That is not the bill which many members of this committee 
have favored. But that is the conflict that needs to be 
resolved. I have taken a position on it which is, by the way, 
different from the position I think of my own legislature, 
which would like the State to be able to have a higher standard 
a year from now. You have shipping companies put in expensive 
technologies this year, and then a year from now any one of the 
States can say, whoops, there is a new technology and we want 
you to adopt a new one?
    We are never going to get this accomplished unless we adopt 
a national standard and let it stick for a reasonable period 
time, whether it is 5 years or 10 years. I would urge the 
members that are considering this to consider that option. But 
it is in your hands. This conflict needs to be resolved between 
these two bills. And again, the position I have taken is not my 
own State legislature's position.
    Having said that, I am really here to make an introduction, 
not to lobby my colleagues.
    I want to introduce a panelist who will be on the second 
panel, Rebecca Humphries. She is the Director of the Michigan 
Department of Natural Resources. She worked her way up through 
the ranks of the Michigan of Natural Resources. She has more 
than 30 years' experience in the field. She has considerable 
knowledge on the impacts of invasive species and disease on 
native wildlife. She has served, in recent years, as Chair of 
the Fish and Wildlife Health Committee of the Association of 
Fish and Wildlife Agencies.
    So, she has a lot of information. She has tackled issues in 
Michigan involving invasive species such as VHS, chronic 
wasting disease, emerald ash borer and so forth. She is going 
to have a lot of valuable information for these two 
subcommittees that meet today.
    We are grateful for your doing what you are doing. I know 
that you are going to excuse me, and I appreciate that.
    I have talked to Senator Nelson about his testimony and I 
agree with everything that he says, for what that is worth. And 
I am glad this damn python is a long way from where we live.
    [Laughter.]
    [The prepared statement of Senator Levin follows:]

                     Statement of Hon. Carl Levin, 
                U.S. Senator from the State of Michigan

    Thank you, Chairman Cardin and Chairman Whitehouse and the 
members of your subcommittees, for holding today's hearing on 
the very important topic of threats to our wildlife.
    As a Senator from Michigan, a Great Lakes State, I have 
seen the consequences of allowing aquatic invasive species to 
enter our waters. About 180 non-native organisms have been 
identified already in the Great Lakes. Some of my colleagues 
may remember that back in the late eighties and nineties, the 
zebra mussel was released into the Great Lakes through ballast 
water. At that time people considered the zebra mussel to be 
just a problem for the Great Lakes. Today, almost 30 States are 
fighting to control and prevent them. Zebra mussels can 
significantly change the nature of the lake bottom, affecting 
fish habitat and spawning. They trap nutrients and disrupt the 
normal flow of these nutrients into deeper waters. The mussels 
also excrete nutrients creating an environment that may be 
linked to water quality problems, such as algal fouling on 
rocky shorelines, off-tastes in drinking water and lethal 
outbreaks of botulism in wildlife, especially during warm water 
periods. Mussels eat by filtering algae from the water. This is 
the same food source for many native fish which means less food 
available to native species. Zebra mussels have caused drastic 
declines in the native Great Lakes mussels (commonly called 
clams) not only by competing for food, but also by nesting on 
top of exposed clamshell so that the native mussel cannot get 
enough food to survive.
    Because invasive species can quickly spread throughout the 
country, the best effort that we have against invasive species 
is prevention. Maritime commerce is the largest pathway for new 
species to be introduced into our waters, and I believe that we 
need to enact legislation that will require ballast water 
discharge management that will result in ballast water 
treatment technology onboard ships as soon as possible. I 
support establishing a strong national ballast water technology 
standard for all ships. Technology that meets this standard 
would be approved for a minimum period of time--5, 8, or 10 
years.
    I also believe it is important to address other pathways of 
introduction such as intentional introductions. Right now, 
anyone can order almost any organism on the Internet and have 
it shipped into the U.S., and no one considers whether that 
organism is invasive and harmful. We need to establish a 
process to screen incoming organisms. The Great Lakes 
Collaboration Implementation Act, which I and Senator Voinovich 
introduced, establishes a screening process for invasive 
organisms.
    Third, we need to be more aggressive about adding organisms 
that are invasive and injurious to the Lacey Act list. Listing 
a species as injurious under the Lacey Act would prevent the 
intentional introduction of these species by prohibiting the 
interstate transportation or importation without a permit. One 
species that I believe should not be imported is the bighead 
carp, and I will introduce legislation to list the bighead carp 
as injurious under the Lacey Act. Three other species of Asian 
carp have already been listed. The Asian carp grow very big, 
reproduce quickly, and are now the most abundant fish in the 
Mississippi River. It's important to Michigan to prevent these 
fish from entering the Great Lakes and destroying the native 
fishery.
    Mr. Chairmen and Ranking Members, the impact of invasive 
species on Michigan's native wildlife is large. I am only able 
to touch on a few of the invaders that have had such a negative 
impact to my State, and I know that each of your States is also 
suffering. So I encourage this committee to support legislation 
to implement a strong ballast water management program, to 
create a screening process for live organisms being imported 
into the country, and to simplify the process of listing a 
species as injurious under the Lacey Act.
    And now I want to say a few words of introduction about 
Director Rebecca Humphries, the Director of the Michigan 
Department of Natural Resources, who will testify later on the 
third panel. Director Humphries has worked her way up through 
the ranks of the Michigan DNR and has more than 30 years of 
experience in the natural resources field. She has considerable 
knowledge on the impacts of invasive species and disease on 
native wildlife. Over the last few years, she has served as the 
chair of the Fish and Wildlife Health Committee for the 
Association of Fish and Wildlife Agencies helping to develop a 
package of information related to State and Federal authorities 
to manage diseases in fish and wildlife so that when a disease 
outbreak occurs, State agencies are prepared with plans, well 
trained staff, and legal authorities. Director Humphries has 
tackled issues in Michigan such as viral hemorrhagic septicemia 
(VHS), chronic wasting disease, emerald ash borer, and I 
believe that she will have some valuable recommendations on how 
the Federal Government can work with States to minimize the 
threats to native wildlife. Thank you, Director Humphries, for 
coming to Washington to share your insights into these issues.
    In closing, I want to thank the members of the two 
subcommittees for today's hearing as well as the other 
witnesses.

    Senator Cardin. Senator Levin, thank you very much for 
sharing your thoughts on the subject with us. We appreciate 
your testimony.
    Senator Nelson.

            OPENING STATEMENT OF HON. BILL NELSON, 
             U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Nelson. Mr. Chairman, while Senator Levin is still 
here, I just want to say that I am a sponsor of that bill in 
the Commerce Committee.
    This mussel, this zebra mussel, is really a problem. What 
happens is, instead of using rocks like they did in the old 
days for ballast on ships, they use water. They take this water 
from a foreign land. Well, this water is invaded with all of 
these species, and they come into the Great Lakes and they dump 
the water, and then the species get out. This zebra mussel goes 
and attaches itself to drain pipes and so forth, and it 
completely clogs up everything.
    So, it is just another example that the Congress of the 
United States needs to address this problem in law. It needs to 
address what I am going to show you in law as well. And there 
is something that you can do about that, and that is the bill 
that we filed which adds to the List of Injurious Species the 
Burmese python.
    Now, let me tell you how bad this has become in the Florida 
Everglades. These snakes that people import into this country 
and buy as pets, well, a Burmese python can grow as much as 7 
feet in 1 year. So they get them as these little bitty snakes, 
and then they get too big, and people release them. And they 
are so prolific.
    As a matter of fact, in an environment like the Florida 
Everglades that, by the way, the U.S. Government is spending a 
lot of money, along with the State of Florida, to reform the 
Florida Everglades from the diking and draining that had 
occurred for the last three-quarters of a century, and now we 
are allowing a species to take over that is at the top of the 
food chain, and all of the natural species that is in the 
Florida Everglades that we are restoring back to what Mother 
Nature intended, all of that native species is being thwarted.
    For example, they found that this snake has swam across the 
ocean to Key Largo. It is the top key in the chain of the 
Florida Keys. And there they found, in the belly of one of 
these snakes, the endangered Key Largo wood rat. They have 
found in these snakes a full grown Florida deer. They have 
found a full grown Florida bobcat. It is only a matter of time 
before a Florida Panther is found inside of one of these 
invasive pythons.
    As you can see, by the size of this critter, you can see 
that this one is probably 16 or 17 feet, what they do is they 
have fangs that have fish hooks on them. Their modus operandi, 
since you cannot see them, they will lie in wait perfectly 
still for their prey. They then strike, and grab their prey 
with their fangs which, because it has a barb on the end, the 
prey cannot pull away, then immediately wrap their constrictor 
body around the prey and suffocate their prey to death.
    Unfortunately, the worst happened last week in Florida. A 
pet Burmese python only 8 feet long, not this long, slithered 
out of its glass cage and, in the middle of the night, worked 
its way up into the baby crib, attached its fang to the head of 
a 2-year-old child, wrapped its body around the child and 
strangled the child to death.
    This happened in Sumter County, which is to the west of 
Orlando and north of Tampa. It is just a matter of time before 
one of these snakes gets to a visitor in the Florida 
Everglades.
    Mr. Chairman, I have had the Superintendent of the 
Everglades Park tell me that they now estimate that these 
snakes have proliferated to the tune of 150,000 in the Florida 
Everglades National Park. The reason they are so prolific is, 
they killed a 16-footer and inside of her were 56 eggs ready to 
hatch. So, you see how it has become such an invasive species. 
And it is taking over anything that is natural to the Florida 
Everglades.
    Now, fortunately, at the end of May, we took Secretary 
Salazar down the Everglades, took him out in an airboat and he 
got to see this natural phenomenon called the River of Grass. 
But before we took the tour in the airboat, we brought this, it 
is a 16-footer, you can see the body, and you can see Secretary 
Salazar here looking at this snake. This snake is about as 
large as this one. And you see the power. It took three men to 
hold that snake and that snake was not hungry. You can see the 
power.
    The middle of that snake, the middle of him, is this big 
around. And it is all muscle. You have heard the phrase a pig 
in a python, with the hump in the middle of the snake? Well, 
that is exactly what they do. Once they have suffocated their 
prey to death, then these jaws separate and they ingest the 
whole prey and the body expands and that is where the phrase 
the pig in the python came from.
    In the food chain, there is only predator that is higher 
than this, and that is the alligator. But that is only a very 
large alligator. We have had a 12-foot python attack an 8-foot 
alligator. And they thrashed around in the water for 30 hours 
right off of the headquarters of the National Park in the 
Florida Everglades.
    We have found a 6-foot alligator inside of a python. Here 
again, this is only a 6-footer, and you can see what they look 
like against St. Augustine grass, but when these critters get 
into the natural swampy conditions, you cannot find them. They 
had captured one, they put an electronic chip in one. So they 
trapped it and they had the electronic antenna saying that the 
snake is right there, and all of the biologists standing around 
could not see the snake. That is how difficult they are.
    What I am going to enter into the record, with your 
permission, is a 10-page document that will detail the number 
of python attacks on human beings in the last 10 years. And I 
can tell you, Mr. Chairman, it has been 17, and 7 people have 
died as a result of the attack.
    So not only do we have a species that is threatening to 
humans, and the superintendent of the park told me one day that 
he has never experienced anything like this, they saw a python 
starting to come across the road out in the park. He said his 
attention was diverted momentarily and he turned around and the 
python was right in front of him. They move that quickly.
    So, endangerment to humans, especially endangerment to the 
natural ecological phenomenon of what Mother Nature intended 
because of this snake going after all the other prey, and, 
ultimately, changing the very nature of something that we are 
trying to return to what Mother Nature intended, and that is 
the Florida Everglades.
    I would close with this. This snake coming out of Burma, 
all it knows is that it likes moist, humid climates. This is 
not restricted just to the south end of the peninsula of 
Florida. This snake, if it continues to proliferate, you are 
going to find it all over the southern United States and that 
is all the way, and the biologists will tell you as they 
testify, there are conditions in California and all across the 
sunbelt that are conditions for this snake to prosper in.
    As you look at these invasive species, and there are plenty 
of others you all have mentioned, and I would add that the 
Brazilian pepper plant and the Nile monitor lizards are other 
invasive species, we have got to have the ability to stop it.
    Because we have the problem in Florida, I have been asking 
the U.S. Fish and Wildlife Service, administratively, to do 
something about the import. And for 3 years they have not. They 
said that they are studying it. I am hopeful now that, under 
Secretary Tom Strickland, who was down there with us, I am 
hopeful that they are going to administratively get into it.
    But you can do something about it, Mr. Chairman, by a one 
word change in the law and restricting it to, not all of the 
constrictor snakes, but to this particular one. And that would 
be the help that we need to address this problem.
    Thank, you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

                    Statement of Hon. Bill Nelson, 
                 U.S. Senator from the State of Florida

    Chairman Cardin and Chairman Whitehouse, thank you for 
inviting me to testify at this hearing today.
    Last week tragedy struck in a small town northwest of 
Orlando, Florida. As the family awoke a scene of horror 
unfolded. An 8-foot albino Burmese python escaped from its 
container, slithered through the house and up into a crib where 
2-year-old Shaiunna Hare lay asleep. The snake bit the child 
and wrapped itself around her body. By the time the paramedics 
had arrived, the child was already dead from asphyxiation. This 
is truly the scene of a parent's worst nightmares.
    We have been warning about the dangers that these lethal 
snakes present. I have a 10-page document that I will submit 
for the record detailing python attacks over the last 10 years. 
During that period at least 17 people have been the victim of 
an attack, of which 7 died as a result.
    Besides posing a threat to safety, invasive species like 
the Burmese python are wreaking havoc in our most treasured 
environments. Some estimate there are upwards of more than 
100,000 of these deadly pythons in the Everglades National 
Park. The crown jewel of our national park system has been 
transformed into a hunting ground for these predators.
    When is the time for action? We already have one tragedy on 
our hands. How long will it be before one of these snakes gets 
a hold of the extremely endangered Florida Panther? How long 
will it be before a tourist in the Everglades National Park has 
a dangerous encounter with one of these massive pythons? It 
took this tragic event to bring back focus to this problem, but 
there is something we can do about it.
    The Fish and Wildlife Service has the capability, under 
law, to declare this an injurious species under the Lacey Act.
    After the South Florida Water Management District made a 
request in June 2006, Fish and Wildlife has spent the last 3 
years studying it. I think that Secretary of the Interior Ken 
Salazar will take them from studying this issue to acting on 
it. But there is something else we can do. Congress can change 
the law.
    I filed a bill in February which amends the Lacey Act and 
declares pythons as an injurious animal. This will halt the 
importation and interstate commerce of these deadly snakes. 
Classifying the Burmese python or python molurus bivittatus as 
an injurious animal would also stop the importation of these 
snakes between States. This is of particular importance--while 
Burmese pythons have already established a breeding population 
in South Florida, climate maps from the United States 
Geological Service indicated roughly a full third of the U.S. 
is suitable habitat.
    The State of Florida has been working from its end to get a 
handle on these snakes. They now require a yearly registration 
fee, owners must display knowledge of handling and care, and 
snakes are now micro-chipped--so if one got loose you would 
have a chance to chase them down. It's time for the Federal 
Government to step up and address this ecological crisis.
    With more than a hundred thousand of these snakes on the 
loose in the Everglades we must do something before the 
ecological balance is destroyed. We must change the law, and we 
must do it quickly.
    Finally, I would like to thank you again for taking a look 
at the impact non-native plants and animals are having on our 
Nation's natural resources and protected ecosystems. Florida is 
ground zero for exotic plants and animals. From the Brazilian 
pepper to Nile monitor lizards, we have seen it all.
    I would welcome the opportunity to work with you on 
reforming the way we allow species from all over the world into 
the United States. There might be a way to stop the next 
Burmese python from establishing a foothold here.

    Senator Cardin. Well, thank you for your very powerful 
testimony, Senator Nelson.
    Our first panel will consist of our Federal agencies. We 
have, representing the United States Fish and Wildlife Service, 
the Assistant Director for Fisheries and Habitat Conservation, 
Gary Frazer, and then from the United States Department of 
Agriculture, Animal and Plant Health Inspection Service, Acting 
Associate Administrator Bill Clay.
    Mr. Frazer, we are glad to hear from you. Your full 
testimony will be made part of the record. You may proceed as 
you like.

STATEMENT OF GARY FRAZER, ASSISTANT DIRECTOR FOR FISHERIES AND 
      HABITAT CONSERVATION, U.S. FISH AND WILDLIFE SERVICE

    Mr. Frazer. Thank you.
    Chairman Cardin, Chairman Whitehouse and members of the 
subcommittees, I am Gary Frazer. I am the Assistant Director 
for Fisheries and Habitat Conservation of the U.S. Fish and 
Wildlife Service. I also serve as co-chair of the Aquatic 
Nuisance Species Task Force.
    I am joined today by Dr. Jonathan Sleeman, Director of the 
U.S. Geological Survey's National Wildlife Health Center. And 
thank you for the opportunity to testify today.
    Non-native invasive species have significantly affected the 
health of our native species and ecosystems, and the U.S. 
continues to see non-native potentially invasive species 
crossing our borders through various pathways. Given the global 
nature of our economy and transportation systems, we expect 
this trend to continue.
    Invasive species are among the primary factors that have 
led to the decline of native fish and wildlife populations in 
the United States and are among the most significant natural 
resource management challenges facing the Fish and Wildlife 
Service.
    We know that about 4 in 10 species that the Service 
protects under the Endangered Species Act are at risk in large 
part due to the effects of invasive species. Aquatic invasive 
species have harmed America's sport and commercial fisheries. 
And invasive species are one of the most significant threats to 
the National Wildlife Refuge System.
    A September 2008 report of the Government Accountability 
Office listed invasive plants as the No. 1 threat to habitats 
on refuges and invasive animals as the third greatest threat.
    Preventing non-native species from being introduced or 
established is the most cost-effective strategy for dealing 
with invasive species. Control is costly, and the conservation 
community has limited tools for long-term management, 
particularly of aquatic invasive species once they become 
established.
    Preventing the introduction and spread of non-native 
invasive species requires a comprehensive approach including 
Government regulatory tools, such as import screening and 
injurious wildlife prohibitions, pathway management, and public 
education and outreach.
    Now I would like to turn to the threats of disease to 
native fish and wildlife.
    Human-induced changes to the landscape, including the 
introduction of non-native species, climate change and 
declining water and environmental quality, appear to be 
contributing to a surge in infectious disease and parasites 
afflicting native fish and wildlife. Some pathogens are endemic 
to the United States while others are introduced and the 
pathogens themselves could be classified as non-native invasive 
species.
    Non-native infectious diseases are of particular concern 
because native wildlife populations are less likely to have 
developed immunity to these pathogens. Non-native pathogens 
introduced into highly mobile wildlife species can spread 
rapidly, be difficult to control, and have severe ecological, 
economic and even human health impacts.
    An example is white-nose syndrome of bats, which was first 
documented in January 2007 in hibernating bats in New York. It 
has since been documented in hibernating bats in 9 States 
including Virginia and West Virginia. More than 90 percent of 
bats in affected caves have died, with a few caves showing 
close to 100 percent mortality.
    Thus far, six bat species have been affected, including the 
endangered Indiana bat. The sudden and widespread mortality 
associated with white-nose syndrome has never been observed 
before in any of the more than 1,100 species of bats known to 
science.
    The Service is leading the Department of the Interior's 
response to the emergence and spread of white-nose syndrome in 
bats, in cooperation with the USGS, the National Park Service, 
the U.S. Forest Service, State fish and wildlife agencies and 
many other partner agencies and organizations. And we expect to 
have management recommendations in place by September of this 
year.
    The Service and USGS work very closely with State fish and 
wildlife agencies on surveillance, diagnosis and management of 
fish and wildlife disease. The nature of State and Federal 
authority over fish and wildlife requires close and 
collaborative relationships and capability among all the 
partners. To this end, the Service and USGS are partners with 
the State fish and wildlife agencies in development of a 
National Fish and Wildlife Health Initiative, an initiative of 
the Association of the Fish and Wildlife Agencies.
    The overarching goals of this initiative are to establish 
and enhance fish and wildlife agency capability to address 
health issues of free ranging fish and wildlife and to minimize 
the negative impacts of health issues affecting free ranging 
fish and wildlife through management, surveillance and 
research. As with invasive species, preventing and controlling 
disease in fish and wildlife requires capability and 
coordinated effort among many parties.
    Invasive species and fish and wildlife disease are existing 
threats to fish and wildlife populations that will only grow in 
significance in the face of changes to the physical environment 
caused by climate change. Managing these existing stressors to 
fish and wildlife, and anticipating how they may be exacerbated 
by a changing environment, are essential elements of sustaining 
our Nation's fish and wildlife in the face of climate change.
    Mr. Chairman, the Service appreciates your interest in 
these issues and looks forward to working with you to address 
these threats to our Nation's fish and wildlife.
    Thank you again for the opportunity to appear before you 
today, and I would be happy to respond to any questions you or 
the subcommittees may have.
    [The prepared statement of Mr. Frazer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Cardin. Thank you very much, Mr. Frazer.
    Mr. Clay.

STATEMENT OF BILL CLAY, ACTING ASSOCIATE ADMINISTRATOR, ANIMAL 
    AND PLANT HEALTH INSPECTION SERVICE, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Clay. Good morning, and thank you for the opportunity 
to testify before your subcommittees.
    I am Bill Clay, the Acting Associate Administrator for the 
USDA Animal and Plant Health Inspection Service, or APHIS. I am 
joined this morning by Dr. Jere Dick, Associate Deputy 
Administrator for APHIS' Veterinary Services Program, and I 
will be speaking to you about APHIS' role in relation to 
wildlife diseases and invasive species.
    APHIS' mission is to protect the health and value of 
American agriculture and natural resources, which we primarily 
accomplish under the Plant Protection Act, the Animal Health 
Protection Act, and the National Animal Damage Control Act.
    Wildlife are reservoirs for a number of serious diseases 
such as chronic wasting disease, brucellosis, plague, rabies 
and bovine tuberculosis, to name a few. Many pose a risk of 
disease spread to agricultural animals, particularly as the 
interaction between wildlife and livestock continues to 
increase. And in several cases, wildlife can pose an elusive 
reservoir for diseases that APHIS is trying to eradicate in 
livestock.
    APHIS, through its Veterinary Services and Wildlife 
Services Programs works to address the animal disease threats 
from both the wildlife and livestock interface. In addition to 
protecting livestock, our agency also seeks to safeguard 
wildlife resources from livestock diseases, as well as emerging 
diseases and invasive species.
    One example is our cooperative effort in Michigan to combat 
bovine tuberculosis in both wildlife and livestock. We are a 
lead agency, in cooperation with the Michigan Department of 
Natural Resources and our industry partners in the Federal-
State Wildlife Risk Mitigation Program, which assists livestock 
producers in preventing disease spread from wildlife to 
livestock.
    APHIS conducts wildlife risk assessments of livestock 
facilities, develops and funds mitigation plans to increase the 
separation between wildlife and livestock, and conducts bovine 
tuberculosis surveillance and disease management in affected 
herds, among other things.
    Another example is viral hemorrhagic septicemia, which has 
caused die-offs in many freshwater species in the Great Lakes. 
The virus could also affect commercially raised fish in other 
parts of the country. So, in cooperation with the U.S. Fish and 
Wildlife Service, we issued a Federal order preventing the 
movement of potentially infected fish out of the Great Lakes 
watershed region to unaffected parts of the country.
    Our work to address rabies has significant public health 
and wildlife health impacts. We work closely with our State 
partners and others to annually distribute more than 11 million 
oral rabies vaccination baits to reduce the threat to humans, 
domestic animals and wildlife.
    We also work closely with the U.S. Centers for Disease 
Control and Prevention and with Canada and Mexico as part of an 
international strategy for rabies. This program is a model for 
the One Health Initiative, a worldwide strategy that promotes 
expanding interdisciplinary collaboration and communication and 
that recognizes the critical link between human health and 
animal health.
    We also work cooperatively with the States to eradicate 
invasive species which can devastate ecosystems. For example, 
nutria, a large semi-aquatic rodent native to South America has 
caused extensive damage to wetlands, agricultural crops and 
structural foundations and may serve as a reservoir for 
disease. We are working to eradicate nutria on the DelMarVa 
peninsula in Maryland and have removed more 13,000 to date.
    Also, in Florida's Grassy Key, we are working with the 
State to eradicate the Gambian giant pouched rat, a rodent 
native to Africa. We are in the final stages of surveillance 
and removal of any remaining rats which could cause significant 
agricultural damage and damage to natural resources if they 
reach the mainland. We also have ongoing invasive species 
programs for brown tree snakes in Guam, for coqui tree frogs in 
Hawaii and for feral swine in several of the States.
    Finally, research is a vitally important part of our 
wildlife disease management efforts. Our National Wildlife 
Research Center scientists design, develop and test new tools 
for minimizing human-wildlife conflicts that are biologically 
sound, environmentally safe and socially acceptable. National 
Wildlife Research Center scientists investigate the ecology and 
transmission of wildlife diseases, as well as develop and test 
wildlife vaccines and new disease surveillance methods.
    Wildlife diseases studied there include avian influenza, 
bovine tuberculosis, chronic wasting disease, pseudorabies, 
West Nile virus, rabies, and others.
    In summary, APHIS has a deep understanding of the link 
between the health of wildlife, the health of our Nation's 
agricultural animals, and the impacts of invasive species. We 
are committed to continuing the strong cooperative partnerships 
with other Federal agencies and our State partners as we work 
to protect the agricultural and natural resources of our 
Nation.
    We appreciate the interest of your subcommittees in these 
efforts, and we look forward to working with you on wildlife 
issues of mutual interest.
    This concludes my testimony, and I would be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Clay follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Cardin. Thank you very much.
    Senator Nelson has asked the committee to include the fact 
sheets on the python incidents. Without objection, that will be 
made part of the record.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Senator Cardin. Let me point out to the members of the 
committee that I have been informed there will be two votes 
starting in a few minutes on the floor of the Senate. It is my 
intention to keep the hearing in session. Senator Whitehouse 
has indicated that he will be back after the first vote, in 
time for me to do that. If that, in fact, carries out, we will 
try to continue the hearing.
    Let me start with some questions, if I might, in regards to 
the eradication programs, Mr. Clay, which you are referring to. 
I have seen first hand the work that has been done on the 
nutria in Blackwater, and I am very impressed with the public-
private partnership. I think you said it was 13,000 or 8,000--
--
    Mr. Clay. Thirteen thousand.
    Senator Cardin. Thirteen thousand nutria have been removed. 
That is quite an impressive effort, and I know that we have 
seen the result, the effects of these results.
    My question is, how effective is this program? Can we 
expect that we can completely eradicate the nutria from the 
Eastern Shore of the DelMarVa peninsula? Or is this a 
management issue more so than effort to completely eradicate?
    Mr. Clay. Well, Senator, once that invasive species becomes 
firmly established, like nutria have in the DelMarVa peninsula 
or in Louisiana, or as brown tree snakes have become 
established in Guam, I think we have to be careful about using 
the word eradicate because I am not convinced that we can 
entirely eradicate every single animal.
    I do think with the nutria, brown tree snakes and other 
invasives that have become firmly established, we can control 
the problem to the point where it is no longer, where it does 
not cause any environmental effects. I am not sure that we can 
entirely eradicate them, but I do think that we can make it not 
the problem that it is today.
    Senator Cardin. So it is more of a management issue than an 
eradication issue?
    Mr. Clay. Yes.
    Senator Cardin. Mr. Frazer, I heard you say that our 
strategy should be to try to prevent the introduction of 
invasive species. We have the Lacey Act dealing with injurious 
species. Do we need to look at changing that law? Is there the 
right balance? As I understand it, there is more focus on 
livestock-type products than there are for general control at 
our borders. People can bring in pets and then release them, as 
we have seen with the snakehead, as we have seen with the 
python.
    Do we need to look at changing that law? Is this an 
enforcement issue? What do we need to do to be more effective 
in dealing with injurious types of introductions into the 
United States?
    Mr. Frazer. Well, Senator, there are multiple authorities 
to address controlling the importation of non-native species 
into the United States. When it is a public health issue, CDC 
has authorities. When it is an agricultural health issue, USDA 
has authorities. When it is an issue related to injurious 
nature to fish and wildlife, the Service has authority under 
the Lacey Act to undertake rulemaking to add a species to the 
list and prevent its importation and to interstate transport of 
those species.
    It is a rulemaking process. It is process laden and 
cumbersome. The Service has not been resourced to staff that 
program at a high level. And so it has taken, in many cases, 
several years for us to move through the process of adding a 
single species to the list.
    It is also been administrated in a fashion that is more 
reactive in the past. Species that already have been imported 
and demonstrated to be of concern in the U.S. or those that 
have tended to be the focus of adding them to the list.
    So, I do think that we need to be looking both 
administratively to improve the process and do what we can, in 
terms of adding more resources, doing everything we can to 
improve the administrative process of getting through the 
rulemaking, and we should also be looking at other approaches 
that will be more proactive in nature.
    Senator Cardin. We would look forward to your 
recommendations there. I mean, I think Senator Nelson makes a 
very strong point about the Burmese python, that even if it 
were added to the list, the damage has been done. The question 
is, can we stay ahead of the curve?
    Are there certain types of animals that should not be 
permitted in this country because of its tendency to be a pet 
for a short period of time and then released to the wild that 
could cause damage here in America? I think that is an issue 
that we should try to stay ahead of the game, rather than just 
trying to be reactive, as you said. I am not sure what the 
answer is, but we certainly welcome your thoughts as to giving 
you additional tools to deal with that.
    Mr. Frazer. We would be happy to work with you. I testified 
recently before the House Natural Resources Committee on a bill 
that has been introduced on the House side that took a 
different approach. So, we would be happy to explore options 
with you.
    Senator Cardin. And what was that approach?
    Mr. Frazer. It was one that established two different 
lists, an approved list and an unapproved list. It recognizes 
some species that might fall in the middle, and you have to do 
a case-by-case approach. It was one that sought to provide a 
more proactive approach, provide more certainty to importers. 
It placed the onus upon importers to provide information upon 
which to make the risk assessment. It was designed to be more 
timely, more proactive. There are a number of issues that are 
associated with making such a thing work, not the least being 
the resources that would be involved.
    Senator Cardin. I think Senator Barrasso raises a very 
valid point about industries in America depending upon 
diversity in species, which is certainly something that we do 
not want to stop. But there are certain types of wildlife that 
really does not serve that purpose, that the potential danger 
seems to me outweighs any of the benefits, including it being 
an exotic pet. And we would hope you have the authority to move 
more rapidly to prevent a Burmese python circumstance in the 
future.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. And 
thank you for that reference. I do have letters from the 
Chamber of Commerce of the United States and the Retail Leaders 
Association. I would like to introduce those----
    Senator Cardin. Without objection, it will be included in 
the record.
    Senator Barrasso. Thank you, Mr. Chairman.
    [The referenced letters follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Senator Barrasso. Mr. Clay, my impression has been that the 
USDA has broad authority in controlling injurious wildlife 
species in terms of entering into agreements with States, with 
local jurisdictions, with individuals to control these invasive 
species. How can we use the existing authorities, which the 
USDA already has and the Fish and Wildlife Service has, to 
address some of these threats to our native species? Are there 
things we can do right now with the laws already in place?
    Mr. Clay. Well, I think, as far as the APHIS wildlife 
services program, we are not a regulatory program, unlike the 
other programs in APHIS. So, we would work strictly on a 
request basis from State or Federal agency or the private 
sector. As far as the regulatory authorities in APHIS regarding 
livestock health, I think there are appropriate authorities 
that cover veterinary services activities there.
    So, we will be glad to assist any State or Federal entity 
that requests our assistance if it falls under the regulatory 
authority.
    Senator Barrasso. Following up with Mr. Frazer, I look at 
the Game and Fish Department in Wyoming. It is very concerned 
about some of these aquatic invasive species that we talked 
about, that Senator Levin talked about beginning in the Great 
Lakes, and we have concerns.
    What can the U.S. Fish and Wildlife do to support a State 
effort to tackle this threat, short of adopting some sweeping 
new Federal law which I know my State is not really asking for? 
They are just asking for some help.
    Mr. Frazer. Well, as I said, I co-chair the Aquatic 
Nuisance Task Force, which is organized to coordinate Federal 
efforts to address aquatic nuisance species but also is closely 
connected with six different regional panels that reach out to 
State agencies.
    Through that effort, the Fish and Wildlife Service led what 
we called the Hundredth Meridian Initiative, which, through the 
1990s, served to try to prevent the movement of zebra and 
quagga mussels from the Great Lakes into the Western States. 
For a number of years, it was successful. But that barrier was 
breached and, as you know, zebra and quagga mussels are now 
established in the Colorado River.
    But we are still working closely with our States, including 
through the limited dollars that we have, to provide support, 
financial support, to State invasive species programs, to mount 
effective prevention and control programs, to contain the 
species where it is now, to do extensive public education and 
outreach, because much of the movement is through recreational 
boating and other pathways, and otherwise to provide leadership 
and support to the States and others that have to be part of a 
solution dealing with prevention and containment.
    Senator Barrasso. Can I ask, also, have you done an 
economic analysis? I mean, I introduced a letter from the 
Chamber of Commerce about some of the impact that a broad piece 
of legislation would have on things like sport fishing if you 
really go ahead and adopt a precautionary approach, as opposed 
to a risk-based approach.
    Mr. Frazer. We have not done them in a generic fashion. But 
part of the challenge of us moving through an individual 
injurious wildlife determination is that we do need to do an 
economic analysis and look at the effects of any prohibition on 
importation on small businesses, small organizations. Those are 
the sorts of additional analyses that require time and 
resources and make the process challenging.
    Senator Barrasso. Mr. Chairman, I know they are calling for 
the vote. If I may just introduce a couple of other questions 
in written form so that Senator Lautenberg has an opportunity 
to ask questions.
    Senator Cardin. Certainly.
    Senator Barrasso. Thank you very much. I appreciate that.
    Senator Cardin. Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman. And thank each of 
you for your very depressing testimony.
    This has been a difficult hearing because we are facing up 
to a problem that exists all around us, and one that has not 
received the right kind of attention, in my view. When I think 
about recreational boaters and what they might carry, what does 
one do about that? I mean, are we out saying that you have to 
wash down your boat with a particular kind of material, and so 
forth, and I just cannot imagine getting people that alarmed 
about it. That question does not deserve an answer. It is just 
a rhetorical question.
    Mr. Frazer, I have asked Interior to devote more resources 
to curbing the white-nose syndrome. Now, is this situation 
considered among the more serious in terms of the bat 
population? Is this recognized as an imminent and massive 
danger?
    Mr. Frazer. We consider this a crisis in bat conservation, 
particularly in the Eastern United States, and we are 
redirecting existing dollars to tackle that now to the extent 
that we can.
    Senator Lautenberg. So, is there a provision in the 
structure that enables you to move funds to the more critical 
situations? Are there enough funds, as we listen to the 
testimony and our colleagues have presented, are there enough 
funds in reserve that are available to get out and start 
fighting these situations where there are invasive species or, 
in this case, a virus or whatever it is that is killing these 
bats?
    Mr. Frazer. We are directing funds under the Endangered 
Species Act Recovery Program, as well as within our 
Environmental Contaminants Program, to tackle this. USGS is 
directing their discretionary research dollars to this. And a 
number of other agencies are also directing, to the extent that 
they have discretion, resources to tackle this issue. I cannot 
speak to whether that is viewed as adequate. Now, we are all 
Federal bureaucrats, so we could always do more. But there is a 
significant effort mounted.
    Senator Lautenberg. Thank you. Scientific studies suggest 
that humans may play a role in the spread of white-nose 
syndrome. The Fish and Wildlife Service has called for a 
voluntary moratorium on caving in affected areas.
    Now, since most of this depends on State supervision, what 
does the Federal Government do to monitor what State activities 
are taking place to do their part since this is not typically a 
Federal jurisdiction?
    Mr. Frazer. As I said in my testimony, management of fish 
and wildlife disease requires a very close and collaborative 
partnership with State fish and wildlife agencies. They have 
the authority and responsibility, as well as the field 
presence, to deal with wildlife disease that exceeds most 
Federal agencies. The Federal Government can provide 
leadership, it can provide financial support, it can provide 
research, but in many cases it is the State agencies that are 
going to be involved in the operational management activities--
--
    Senator Lautenberg. But what happens, Mr. Frazer, if it is 
observed that a particular State is not doing quite what they 
should? Is there a corrective action that can be taken by the 
Federal Government that says, hey, it is going to get you 
involved with us in funding or something like that?
    Mr. Frazer. We have not experienced that situation. But if 
we did, at least the Fish and Wildlife Service does not have 
the kind of authority to step in and federalize management of a 
disease issue affecting a resident fish and wildlife 
population.
    Senator Lautenberg. Not to manage it, but rather to report 
on it in some manner or form so that we look at whether or not 
we have to make adjustments and, considering the threats that 
these conditions pose, we would like to stress as much action 
as we can possibly muster. Is it possible the white-nose 
syndrome will result in serious direct human health impacts if 
it continues to spread?
    Mr. Frazer. We do not know of human health impacts 
associated with this disease. Certainly, ecological impacts to 
bats, a potentially catastrophic affect to bats.
    I would say, with regard to our relationships with States, 
it is a very close and very positive relationship, and I would 
not anticipate a situation where we would be at loggerheads.
    Senator Lautenberg. OK. Thanks, Mr. Chairman.
    Senator Cardin. Thank you. As you pointed out, you have a 
great deal of authority under different sections. I am trying 
to understand when you consider it urgent to act quickly. I 
know you have emergency powers to protect the public health of 
the people of this Nation.
    What standards are used in order to take emergency 
precautions where there is an immediate threat? And is there 
anything that we can learn from that that could help us, 
perhaps, deal with some of these other problems in trying to 
streamline the process for making decisions on border issues?
    Mr. Frazer. The Fish and Wildlife Service does not have 
authority to an emergency listing under the Lacey Act. We are 
governed by the Administrative Procedures Act. So, the standard 
there would be, basically it is a due cause standard that we 
have to establish in order to take emergency action under the 
Administrative Procedures Act. We do not have authority like 
under the Endangered Species Act to just simply do an emergency 
listing.
    Senator Cardin. But you do have, USDA does have certain 
emergency powers. Maybe I can try to get Mr. Clay involved 
here.
    Mr. Clay. Yes, sir. Senator, the Animal Health Protection 
Act does give APHIS broad authority to deal with any type of 
animal that poses a risk to livestock or to agriculture, 
whether it is a pet or any kind of animal. If there is a risk 
specifically to agriculture and it can impact agriculture, 
APHIS has the authority to go in and deal with that.
    Senator Cardin. But it does not extend to the situation 
such as the python or the invasive nutria. If there are 
snakehead, you could not list prohibited imports because of the 
fear it would have on agricultural products in the country, or 
could you?
    Mr. Clay. We could if there was a threat from the animal. 
Like, for instance, hedgehogs are prohibited from entering the 
country because of the threat of tuberculosis or foot and mouth 
disease from them. So, they are an animal that would be 
regulated as far as watching closely. Other animals, if they do 
not pose a disease threat to livestock of agriculture, would 
not fall under the regulatory authority of APHIS.
    Senator Cardin. It seems that is a pretty narrow area where 
you can act. It is hard to anticipate that an exotic pet, which 
could pose a threat to livestock, or a plant to agriculture, 
would be prohibited from being introduced into America because 
of the fear that it would be released into the environment.
    Mr. Clay. There have been several species of tortoises that 
have been prohibited because of the ticks and other arthropods 
that they carry on them that are vectors of livestock diseases. 
So, it really depends on the type of animal and the country it 
is coming from, if there is foreign animal diseases, foot and 
mouth disease or high path avian influenza or whatever, coming 
from that country. That is when there would be specific 
restrictions or import regulations.
    Senator Cardin. And when you have taken this action, how 
effective is the border control and enforcement?
    Mr. Clay. Well, we work closely at all the ports of entry 
with the Fish and Wildlife Service and the other Federal 
partners on this. We all have different authorities that we 
operate under, some of them impact wildlife or affect wildlife 
and others do not. But we have been working with these Federal 
partners for years. We have had long standing cooperative 
relationships with them, so we understand their authorities, 
their expertise, and I believe we are working very closely with 
them at the ports of entry.
    Senator Cardin. But there are certain prohibited items and 
of course we all know what happens at the borders. Is this 
generally monitoring commercial activity at our borders more so 
than the individual who is returning to our country?
    Mr. Clay. Well, it is looking at, primarily, wildlife or 
agricultural animals coming in or their products that are 
coming in that could pose a threat to the livestock or 
agricultural health.
    Mr. Frazer. For the Fish and Wildlife Service, Senator, 
there are designated ports of entry for legal commerce and 
wildlife. We permit and license importers of wildlife. They are 
required to file declarations that describe what and where 
their products come from. So, legal commerce is something that 
comes through those designated ports, and it is in the form of 
commercial activity. There are certainly illegal and 
unauthorized imports of wildlife and wildlife products that 
come into the country.
    Senator Cardin. I will just make one final observation, and 
that is that some of this could be better education, to let the 
public understand the dangers of these types of releases. I 
think that publicizing what has happened in Florida, for 
example, the loss of life as the result of someone innocently, 
they thought, releasing a snake into the wild. I think we could 
do a better job. That is something that I think all of us need 
to take a look at to see what we can let people know----
    Mr. Frazer. Public education is, excuse me, the effective 
educating and really changing the perspective of the public on 
invasive species is extremely important. Senator Lautenberg 
talked about washing boats or modifying the behavior of 
recreational boaters. We have a specific campaign to do that, 
and it has been very effective.
    With regard to invasive species, particularly pet species, 
we have something called Habitattitude that seeks to educate 
pet owners about the dangers and risks of releasing their pets 
or aquatic plants into the wild. So those are effective parts 
of our strategy.
    Senator Cardin. Well, let me thank both of you, and we look 
forward to working with you as we try to improve our tools to 
deal with this problem through our Federal regulators.
    Before calling the next panel, we are going to take a very 
brief recess. I expect that Senator Whitehouse will be 
returning shortly which will reconvene the second panel. And as 
soon as I have a chance to cast my votes, I will be returning.
    [Recess.]
    Senator Whitehouse [presiding]. I call the hearing to order 
and start getting under way. The other members of the committee 
will come back from the vote as they have concluded their 
business. I gather they are back-to-back votes, so they will be 
able to vote twice and then come on back.
    In the meantime, Chairman Cardin has asked that we continue 
the hearing, and I am delighted to welcome the witnesses who 
are here today.
    I gather that Director Humphries has already been somewhat 
introduced by her Senator, Carl Levin. We are so pleased with 
Senator Levin's and Senator Stabenow's contributions to the 
Senate. I have to say you come very well represented here, and 
I am very pleased to have you here as Michigan's Director of 
the Department of Natural Resources.
    We are also joined by Dr. Gregory Ruiz, who is a Senior 
Scientist at the Smithsonian Environmental Research Center, 
Marine Invasions Research Laboratory. The Smithsonian 
Environmental Research Center is a global leader for research 
focused on the connections between terrestrial and aquatic 
ecosystems. Dr. Ruiz leads SERC's Marine Invasions Laboratory, 
a national-international center for research on biological 
invasions in coastal marine ecosystems.
    I want to tell Dr. Ruiz that I am married to a marine 
biologist who specializes in estuary science, and during the 
course of my pursuit of her, I was actually dragged into her 
sampling, some of which took place underwater in Narragansett 
Bay in February. I guess with that I impressed her enough that 
we have now ended up man and wife, or, in her case, probably 
woman and husband.
    I am very pleased to have you here with us to bring the 
marine and coastal side of this. I think it is extremely 
significant.
    Also to a degree emphasizing the marine and coastal side of 
this is my friend, John Torgan, from Rhode Island, who is the 
Baykeeper of Narragansett Bay and works for our really primary 
environmental organization of Rhode Island, Save the Bay. John 
has been connected to the Narragansett Bay watershed his entire 
life. His Baykeeper Program is part of the National Waterkeeper 
Alliance, specialists with a passion for defending the 
environment and a devotion to working among communities.
    As our Baykeeper, Mr. Torgan is responsible for monitoring 
invasive species in the bay and collaborating with Federal, 
State and local agencies to help prevent the introduction and 
spread of invasive species. Narragansett's native scallop, 
river herring, Atlantic salmon, rainbow smelt, sturgeon and 
American shad populations are all impacted by invasive species.
    Finally, we are joined by Dr. Jeffrey Hill, who is an 
Assistant Professor with the Department of Fisheries and 
Aquatic Sciences at the University of Florida.
    We welcome all of the witnesses, and why do we not go 
across the board beginning with Dr. Ruiz.

   STATEMENT OF GREGORY RUIZ, SENIOR SCIENTIST, SMITHSONIAN 
   ENVIRONMENTAL RESEARCH CENTER, MARINE INVASIONS RESEARCH 
                           LABORATORY

    Mr. Ruiz. Thank you, Mr. Chairman. Good morning and thank 
you for the opportunity to be here today.
    My name is Greg Ruiz. I am a Senior Scientist at the 
Smithsonian Environmental Research Center or SERC, located on 
the Chesapeake Bay. SERC is a leading national center of 
research on non-native species invasions in coastal marine 
systems. A primary goal of SERC's invasion research is to 
advance fundamental science to understand patterns and 
mechanisms of coastal invasions.
    Today, I would like to highlight the current state of 
knowledge about invasions in marine ecosystems, considering 
Chesapeake Bay and Nation more broadly. I also wish to 
underscore the need for vector management to reduce the risk 
and impacts of invasions.
    Invasions are rapidly changing the earth's ecosystems, 
having dramatic effects on ecological processes, critical 
habitats, commercial fisheries and disease outbreaks. The cost 
of invasions to society is enormous, estimated in excess of 
$100 billion a year in the United States alone. Invasions 
result in the loss of crops and fisheries, damage to 
infrastructure and water supplies, and effects on human health.
    Coastal bays and estuaries are especially vulnerable to 
invasion by non-native species. This is exemplified by 
Chesapeake Bay, the Nation's largest estuary. SERC's research 
has documented over 177 non-native species with established 
populations in Chesapeake tidal waters. The rate of documented 
invasions here has increased dramatically over the last 
century. These organisms were delivered from around the globe 
by a diverse range of human activities.
    Some invasions have large effects on the Chesapeake Bay 
region. For example, the oyster parasite MSX, from Asia, causes 
mass mortality of the native Eastern oyster, contributing to 
the collapse of Chesapeake's iconic fishery and undermining 
efforts for recovery.
    As Senator Cardin indicated, the nutria, a South American 
mammal, is responsible for destruction of salt marsh habitat, 
converting marsh to bare mud and removing critical habitat for 
waterfowl, fish and other organisms.
    Also of great concern is the observed increase in new 
invasions for the Chesapeake. On a daily basis, non-native 
species are delivered to our shores by many different human 
activities, including the movement of ships, recreational 
vessels and live trade organisms such as seafood, bait, 
aquarium pets and aquatic plants. As a result, new invasions 
continue to occur, such as the mitten crab, which has been 
found now from Chesapeake up to New York.
    The Chesapeake serves as a model for what is occurring with 
invasions across the Nation. As Senator Nelson indicated today, 
invasions pose a significant challenge for resource management 
and undermine restoration efforts. This situation is 
exacerbated by the growing number of invasions and also the 
effects of climate change. Increasing temperatures expand the 
number of species that can colonize by creating suitable 
conditions for survival and reproduction that did not 
previously exist.
    There are two key steps that are needed to address invasion 
impacts. The first is to reduce the risks of future invasions 
by new species. The second is to eradicate or control selected 
high impact species that are already established. However, 
unless we address the increasing number of new invaders, our 
capacity to mitigate established evasions is rapidly 
overwhelmed.
    One obvious priority for the Nation is vector management. 
Rather than a species-by-species approach, vector management 
seeks to disrupt the shared transfer process of many species at 
once. I describe this in more detail in my written testimony.
    There is still considerable work to be done to achieve 
effective vector management. The Nation's current approach is a 
patchwork applied inconsistently across different transfer 
mechanisms or vectors.
    There are also critical scientific gaps that limit vector 
management. One of these is tracking and measuring the 
occurrence of invasions over time. This is key to identifying 
the source of new invasions for response. This is also needed 
to assess the long-term effectiveness of vector disruption.
    Remarkably, there exists no national program to provide the 
type of standardized measures needed to assess the status and 
trends of coastal invasions in America today. This presents 
significant problems for vector management. Many regions, 
habitats and taxonomic groups have not been surveyed in recent 
years or even decades, providing only a party picture of 
invasion dynamics.
    Piecing together data from existing programs is 
insufficient because they have conspicuous gaps. To reduce 
invasion risks and impacts, we need a consistent approach to 
vector management. This requires the use of standardized 
quantitative surveys to track invasions. Without such field 
measures, we are often left guessing about the status, trends 
and emerging threats of invasions, limiting effective 
responses.
    In my written testimony, I have outlined some possible 
approaches to meet this challenge.
    Thank you very much.
    [The prepared statement of Mr. Ruiz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
    Senator Whitehouse. Thank you very much, Dr. Ruiz.
    Director Humphries.

 STATEMENT OF REBECCA HUMPHRIES, DIRECTOR, MICHIGAN DEPARTMENT 
                      OF NATURAL RESOURCES

    Ms. Humphries. Thank you, Mr. Chairman.
    I am Becky Humphries, Director of the Michigan Department 
of Natural Resources, and I am also the Chair of the Fish and 
Wildlife Health Committee of the Association of Fish and 
Wildlife Agencies.
    I appreciate the opportunity to share with you today the 
perspectives of State fish and wildlife agencies on the vital 
issue of emerging fish and wildlife disease.
    All 50 States are members of the Association of Fish and 
Wildlife Agencies. The Association strives to enhance and 
facilitate cooperation and coordination among State, Federal 
and tribal agencies with respect to fish and wildlife 
conservation.
    Today, I will share with you the Association's approach to 
this challenge through the development and implementation of 
the National Fish and Wildlife Health Initiative. I will 
characterize the national approach to managing chronic wasting 
disease, CWD, through the development of a State, Federal and 
national plan which I think was a good model. I will also 
briefly reflect on my experiences in Michigan, our lessons 
learned with several of these diseases, including bovine 
tuberculosis, chronic wasting disease, and viral hemorrhagic 
septicemia.
    State fish and wildlife agencies have the statutory, and 
often constitutional, responsibility for the conservation of 
fish and wildlife within their borders for the benefits of 
their citizens. The Association of Fish and Wildlife Agencies 
developed the National Fish and Wildlife Initiative to create a 
system for coordination between State, Federal, tribal and 
private industry to ensure the early detection of pathogens and 
the appropriation response and management of these diseases.
    The two overarching goals of the initiative are first, as 
you have heard, to assist States and Federal agencies in 
enhancing their capacity and appropriately addressing fish and 
wildlife health issues. And second, to facilitate close 
cooperation between State and Federal fish and wildlife, animal 
health and human health agencies with respect to fish and 
wildlife pathogens and diseases in order to minimize their 
negative effects.
    The initiative is a policy framework by which all 
interested parties may seek both to minimize the negative 
impacts of disease agents in fish and wildlife and to 
proactively promote healthy fish and wildlife populations. A 
copy of the initiative is appended to my statement for your 
reference. It is interesting to note that we have three of the 
Steering Committee members here today testifying.
    The growing importance of fish and wildlife health issues 
in natural resource management is dramatic. It makes it 
imperative that more resources be directed toward them in the 
future. Building capacity at all levels of government for early 
detection and the execution of coordinated response plans 
provides the best known strategy for successfully dealing with 
disease incidents.
    State and Federal coordinated disease response planning is 
a model that has been successfully practiced in recent years. 
In 2002, the U.S. Department of Agriculture and the U.S. 
Department of Interior convened a taskforce to coordinate CWD 
management, which included both Federal interests and 
eventually State interests as well. The work of the taskforce 
culminated in the development of a national plan that guides 
surveillance and management actions.
    Congress followed up by appropriating over $10 million for 
CWD management, part of which has been made available to the 
States for use in surveillance and monitoring. In Michigan, we 
used the national plan and the funding made available through 
USDA APHIS to specifically plan for and prepare a response to 
the potential detection of CWD in Michigan.
    In the fall of 2008, in the late summer, we found CWD in 
Michigan. Over a period of 2 years, funds made available 
through USDA APHIS accounted for testing of nearly 12 percent 
of all cervids tested in Michigan for CWD so far. By 
coordinating Federal efforts and funding within State specific 
planning efforts, State fish and wildlife agencies have been 
better positioned to characterize the distribution and 
intensity of CWD and evaluate the risks.
    These Federal funds and the flexibility of cooperative 
agreements between States like Michigan and the Federal 
Government have made it possible to conduct large scale 
wildlife disease surveillance, in some States for the very 
first time, which certainly could not have occurred without 
this coordinated effort.
    Through our experiences with bovine TB and VHS, Michigan 
has learned another important lesson. Fish and wildlife disease 
management is not restricted to the identification of vectors, 
the isolation of infected individuals, and the removal from the 
population. Fish and wildlife bring significant economic and 
cultural interests to bear upon management strategies, and 
those interests bring political attention as well.
    These juxtaposed interests have required a new paradigm in 
disease mitigation. Because diseases like bovine TB and VHS can 
be vectored through the action of hunting and angling 
communities, it has become essential to plan and provide for 
inclusion and partnership with the public.
    The new cultural norm where traditions have been altered to 
conform to the new demands of disease on the landscape have 
been partially achieved, but not without concerted and 
consistent effort in the face of, at times, an unwilling 
public. Planning for cultural, social and political 
consequences of a disease incident should be viewed as 
essential.
    Through our experiences with CWD, bovine TB and other 
diseases, we believe adequate authorities already exist. 
However, we need to put more resources into our work so that we 
can adequately expand our capacity and capabilities to respond 
to what we expect to be an increasing number of diseases.
    We have also learned that disease planning efforts need to 
include the public and have their involvement and engagement.
    Thank you for the opportunity to share the Association's 
perspectives and I would be happy to address any questions.
    [The prepared statement of Ms. Humphries follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
    Senator Whitehouse. Thank you very much, Director. I 
appreciate your bringing your views.
    Next is Baykeeper Torgan.

STATEMENT OF JOHN TORGAN, NARRAGANSETT BAYKEEPER, SAVE THE BAY, 
                              INC.

    Mr. Torgan. Thank you, Mr. Chairman. It is really an honor 
to be here.
    The problem of invasive species poses serious economic and 
environmental risks to rivers, bays and coastal systems 
nationally. According to recent estimates, the United States 
spends in excess of $138 billion annually on control measures.
    While this problem itself is not new, changing 
environmental factors and new species introductions have 
contributed to dramatic shifts in the types of plants and 
animals we see in our region and across the country and have 
opened the door for non-native species to take hold.
    In Narragansett Bay and Southern New England, we have 
observed fundamental changes in the fish and shellfish 
populations as water temperatures have warmed over the past 30 
years.
    The extent of low-oxygen dead zones on the bottom has 
spread as warmer water and pollution contribute to massive 
algae blooms. The populations of classic cold water New England 
fish and shellfish species, like lobster, cod, winter flounder, 
river herring and scallops, are all down as jellyfish, algae, 
and other warm water-tolerant fish like striped bass and 
menhaden have recently increased.
    You mentioned Dr. Whitehouse's dissertation work on winter 
flounder. That is very much on point here. That looked at a 
kind of shrimp that used to be excluded in cold winters in 
Narragansett Bay, but in warmer winters it can now get in, 
called the crangonshrimp or seven spine shrimp, and eat the 
baby winter flounder. So, this is an example of, not an 
invasive species, but a changing condition that opens the door 
to more problems from invasions.
    Invasive plants and animals thrive under these warmer 
conditions. They are causing some negative, but mostly unknown, 
impacts on the broader coastal ecosystem. Asian shore crabs, 
which we first observed in the mid-1990s, are now the most 
common species of crab, the most prolific in front of our main 
offices in Providence. You cannot turn over a rock there 
without finding one. We do not know if they have driven out the 
native crabs or what the extent of the damage is yet, but that 
is something that we need to study.
    Certain shellfish diseases like dermo, MSX and juvenile 
oyster disease, once much more common in Mid-Atlantic waters, 
have nearly wiped out our native oyster populations. Lobster 
diseases further weaken an already struggling industry in 
Southern New England. Commercial fisheries and the historic 
seafood industry of the region are facing unprecedented 
challenges from these and other changes.
    The same changes can be observed in avian, other fish 
populations, mosquitoes with West Nile, and EEE, these may also 
be related to temperature.
    Understanding biological invasions requires knowledge of 
past and present populations. We are only just beginning to get 
a clear picture of what is in our ecosystem today. Doing 
comprehensive baseline assessments in States helps us 
understand what is really new and what has been there and what 
is a threat.
    Rhode Island has just established a citizen-based 
environmental monitoring program for aquatic invasive species 
which is an interagency and university effort. We participate 
in that.
    The National Invasive Species Act has enabled all of this 
progress to date. Since its passage, Congress has appropriated 
$1.7 million per year for States to develop invasive species 
management plans. Individual States' shares of that money have 
been declining though as more States receive approval for their 
plans from the Federal Aquatic Nuisance Species Task Force. 
Rhode Island's share, for example, dropped from $45,000 to 
$35,00 in the past year. So, it would help States a great deal 
if Congress were to appropriate the additional $3 million 
authorized in that Act.
    While my organization is focused primarily on coastal 
waters and estuaries, invasive species on land affect our 
environment significantly, especially where land and water 
interface. I will use the example of phragmites, the giant reed 
grass. I took the train from Providence, and you can see vast 
acres of it as you go through coastal Rhode Island, 
Connecticut, New York, New Jersey, all the way down here. We 
have an invasive species, phragmites, which takes over and 
transforms wetlands into a monoculture.
    But we have identified some feasible control measures for 
it. Habitat restoration, allowing tidal water and salt water 
from the tide, where that is feasible, can knock out 
phragmites. Where that is not possible with some of the other 
aquatic plants species, you can treat them using a combination 
of approved herbicides, cutting and treating over the course of 
several seasons. But that is expensive and is labor intensive.
    Forests, as some of the other witnesses have pointed out, 
are also at risk with things like the Asian longhorn beetle. By 
managing those, by clearing forests, that has an impact on 
water quality through increased runoff.
    We know that prevention, as Senator Cardin had said 
earlier, is the best and most cost-effective control measure. 
But investing in screening and other controls at ports, 
airports and other points of entry would help. Once they are 
established, it is very difficult to get them out.
    Another important role for non-profit organizations like 
mine is in education, in public communication and in outreach, 
to directly involve people in understanding the problem and the 
solution.
    Finally, we believe that regional management is the most 
effective approach to these issues and this approach needs to 
engage multiple States because the species do not respect 
borders. In New England, the Northeast Aquatic Nuisance Species 
Panel of the Federal Task Force helps to coordinate regional 
efforts and maintain frequent communications with the public. 
We view this as an effective model.
    Thank you for this opportunity to testify. I would be happy 
to answer any questions.
    [The prepared statement of Mr. Torgan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Thank you very much, John, and once 
again, welcome. It is wonderful to see you here.
    Our last witness is Professor Jeffrey Hill from the 
University of Florida.

 STATEMENT OF JEFFREY E. HILL, ASSISTANT PROFESSOR, DEPARTMENT 
    OF FISHERIES AND AQUATIC SCIENCES, UNIVERSITY OF FLORIDA

    Mr. Hill. Mr. Chairman, thank you for the opportunity to 
testify concerning the threats of invasive species to native 
wildlife.
    I am Dr. Jeffrey Hill, Assistant Professor of Fisheries and 
Aquatic Sciences at the University of Florida. My teaching, 
research and extension programs involve ecology and management 
of non-native aquatic species. I teach a course in invasion 
ecology, conduct field laboratory research, and apply 
ecological theory and practical experience to risk analysis. I 
have conducted and reviewed risk analysis efforts for sports 
fish, aquaculture species and ornamental species at State, 
Federal and international levels.
    I am the President-Elect of the Introduced Fish Section of 
the American Fisheries Society and a member of State and 
national non-native species scientific advisory committees, 
including the Research Committee and the Detection and 
Monitoring Committee of the Aquatic Nuisance Species Task 
Force.
    Invasive species threaten native species and ecosystems, 
economic values and human health in every State and U.S. 
Territory. Invasive species arrive in the United States through 
a variety of pathways, including intentional importation and 
interstate trade, as well as via unintentional pathways such as 
ballast water.
    The negative effects of many invasive species, such as 
zebra mussels and brown tree snakes, as well as wildlife 
diseases such as VHS, are well known. I will not discuss them 
further, except to say that some invasive species are 
ecologically devastating or economically important and costly 
pests.
    Few would argue that invasive species are not a problem in 
the United States. It is imperative for Federal and State 
agencies to provide effective, reasonable regulation of 
pathways and problematic species to reduce the frequency and 
negative effects of species invasions.
    Invasive species or a small subset of non-native species, 
specifically non-natives that threaten ecological or economic 
harm, or human health. All invasive species must go through a 
series of steps to become invasive. They must be introduced 
into the environment, established, spread and then some will 
become invasive.
    Although these steps sound simple, you may be surprised to 
learn that the process is fraught with difficulty and that most 
introductions fail. Literally millions of individual animals 
and thousands of species are moved across State lines or 
imported annually. Some of these get introduced into the 
environment. Of these introductions, only a small percentage 
make it to the establishment or spread phase, and only a few 
established species have important negative effects.
    The primary Federal regulatory tool for non-native species 
is the Lacey Act. Unfortunately, this system, as currently 
implemented, is not as effective as it should be. An effective 
system needs to focus limited resources on problematic species, 
address gaps in authority, for example diseases that primarily 
impact wildlife, be timely reducing listing time to months 
rather than years, be open, transparent and stakeholder 
inclusive, use science-based credible risk analysis, allow for 
a regional approach to managing risk, be centralized and 
adequately supported with resources.
    These recommendations could be accommodated within the 
current system. Invasive species prevention and management 
hinges on risk. Risk is a function of the probability of an 
event occurring and the consequences if the event occurs. Risk 
analysis is a complex scientific and sociological exercise that 
seeks to identify risks, estimate their magnitude and reduce 
risks to acceptable levels.
    Risk assessment should be transparent, repeatable, 
scientifically credible and defensible. It must also be 
acknowledged that there is scientific uncertainty in all 
methods. Risk assessments are expensive and time consuming, 
usually requiring months to complete. Data needs for assessing 
risks are considerable. Data is lacking for many species, and 
most current data bases are inadequate for the task.
    Risk management can seldom reduce risks to zero. Non-zero 
levels of risk must be considered for any use of non-native 
species. Decisions on acceptable risk levels should be based on 
scientific information, on probable, not possible effects, 
cost-benefit analysis, conservation analysis and cultural 
factors.
    It would be a Herculean task to assist thousands of species 
with hundreds of interest groups with these species. It is my 
expert opinion, based on having done risk analysis, that it is 
impractical to conduct thorough, defensible risk analysis of 
thousands of species in a timely manner given any reasonable 
level of research allocation.
    The focus should be on highly problematic species. States 
have broad authority to manage fish and wildlife resources and 
have considerable experience and expertise related to the 
regional nature of pathways, ecosystems and risk.
    Important roles for the Federal Government would be to 
coordinate the efforts of State, especially States with common 
pathways and ecosystems, facilitate State-based programs, 
bridge important gaps where States lack sufficient authority, 
and help resolve differences between States.
    Working with States would provide a mechanism for reducing 
risk on a regional basis. The Federal Government could 
considerably leverage resources by sharing the burden of risk 
analysis, regulation and enforcement with States.
    In conclusion, my recommendations are to thoroughly revisit 
the Lacey Act with extensive input from scientific experts and 
interested stakeholders, provide substantially increased 
resources of staff and funding to the Fish and Wildlife 
Service, use appropriate screening methods followed by risk 
analysis if needed for any non-native species newly proposed 
for importation, and begin a risk based process for those 
species currently in trade that are identified as problematic 
or likely to become problematic.
    Many of these recommendations are already contained in the 
National Invasive Species Management Plan developed by the 
National Invasive Species Counsel.
    Thank you for the opportunity to present my views. I look 
forward to working with you on these issues.
    [The prepared statement of Mr. Hill follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin [presiding]. Let me thank all of our 
witnesses for their testimony, their contribution to this 
hearing.
    Dr. Ruiz, first I want to welcome you to the panel. As a 
person who lives in Maryland, we are very honored that you are 
here with us and the work that you do. I thank all of the 
members of the panel, but I have to certainly acknowledge my 
Marylander who is on the panel.
    I want to talk about the Chesapeake Bay for a moment. As 
you point out, there is over a hundred invasive species in the 
Chesapeake Bay. I do not know if that is the Chinese mitten 
crab that you have there or not. Is that what you have in front 
of you?
    Mr. Ruiz. Yes, it is a Chinese mitten crab that has been 
showing up in the Chesapeake Bay and to the north.
    Senator Cardin. That has me greatly concerned. The crab 
industry is synonymous with Maryland and the Chesapeake Bay, 
and particularly in the month of July we all very much think 
about our delicacy that we have given to the world. What danger 
do we have that this crab could become a significant part of 
the population and effect the blue crab, the Maryland blue 
crab? Is this a risk factor that we do not know about yet?
    I ask that because one of the questions, one of the points, 
that all of you have been raising, is do a risk assessment 
early so you do not have to try to clean up the mess later, 
which becomes much more difficult.
    Mr. Ruiz. I think the mitten crab is a concern. It 
underscores exactly the point that you are making, I think, and 
also that Professor Hill made, that there is a lot of 
uncertainty about what will happen when a non-native species 
shows up in one of our ecosystems like the Chesapeake Bay and 
that it is a species that transported from one part of the 
world and moved to another one with a different community, a 
different suite of organisms. And so, we really have a very 
poor understanding of how it is going to interact and what will 
play out.
    The mitten crab is of concern because it is a species that 
goes through massive outbreaks, kind of like cicadas do 
seasonally here, but on a much longer time scale. There was an 
outbreak that occurred in San Francisco Bay that damaged some 
of the water supply system in the San Francisco delta.
    In the Chesapeake region, I do not think we really know 
what the impact is going to be of this crab if it is 
established, what effect it might have on infrastructure, water 
supply in particular, and how it might interact with the blue 
crab in terms of competition for resources or even as a 
predator on juvenile blue crab that it may interact with as it 
moves down into salt water.
    Senator Cardin. We already have a problem with the survival 
of juvenile crabs, the blue crabs. The protective grasses are 
being affected by pollution and global climate change. So we 
already are finding it a challenge to preserve the food stock 
basically for the mature crabs. In some cases, they eat their 
own. And now, if the Chinese mitten crab is going to be 
competing with that, if could complicate the survival of the 
blue crab in Maryland.
    Mr. Ruiz. I think that is exactly right. As we are 
struggling to recover the commercial fishery and the blue crab 
population in Chesapeake, the arrival of new non-native species 
is one more stressor, one more factor, which makes it even more 
challenging to recover a fishery like the blue crab.
    We do not, of course, know what the impact of Mitten crabs 
will likely be if it is established and becomes abundant. It is 
a point of concern, and it is something that I think we need to 
take very seriously.
    Senator Cardin. Do we know how this was introduced into the 
Bay?
    Mr. Ruiz. The mitten crab is also an interesting example in 
that it underscores some of the uncertainty there. There are 
two likely ways in which it could have come. One is through the 
ballast water of ships. What we know from specimens that we 
have collected so far is that the genetics tell us it is likely 
coming from Europe where the mitten crab is also established. 
It has been there for over 100 years now. So, it could have 
well come from ships delivering ballast into the Chesapeake or 
the Mid-Atlantic region.
    The other possibility is that it could have come as live 
trade in that it is a commercially important crab, particularly 
in Asia. It is also eaten in Europe. So it is possible that 
someone brought it in. It is illegal to do that now under the 
Lacey Act. Whether it could have been brought in when it was 
still legal, or whether it could have been brought in 
illegally, we do not know.
    So, there is some uncertainty. But those are the two 
pathways or mechanisms by which it could have arrived.
    Senator Cardin. And, of course, the related issue is that 
there is an intentional introduction of an invasive species, 
the Asian oyster, and it certainly has its controversy when we 
intentionally introduce a new species into the Bay. That is 
being done because of the real concern of the loss of oysters, 
which are not only a commercial crop but are a filtering agent 
for clean water. I know there is a lot of work being done to 
monitor the Asian oyster. Are there adequate resources to 
monitor the mitten crab?
    Mr. Ruiz. At the present time, I would say no. The approach 
that we have taken has been to develop an alert system and a 
reporting system across the Mid-Atlantic region by having 
watermen and fisherman, as well as citizens, report records as 
they come across them, taking advantage of the rather large 
commercial fishing effort and recreational fishing that occurs 
in the Chesapeake and Delaware and the Hudson River. By doing 
that, we have learned of over 80 crabs that have been caught 
and confirmed.
    At the present time I would say that is the extent of the 
effort that is being----
    Senator Cardin. Well, what worries me is that, if you are 
correct, that this all of a sudden you see a huge increase 
because of the seasonal aspects to it, we might be faced with a 
crisis in the Chesapeake Bay.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Professor Hill, if I could. There is criticism out there of 
the existing fish and wildlife framework and that it utilizes a 
dirty list. Some say that this approach is too reactive because 
it only addresses species after they have been introduced as 
harmful. Dr. Ruiz talked about the Lacey Act. Is there any 
reason why we cannot work within the Lacey Act to initiate 
proactive screening?
    Mr. Hill. Senator, there is no reason that the Lacey Act 
could not be used to proactively screen species. The screening 
of species, I think, is an excellent way of identifying some of 
the more potentially problematic species that are out there, 
and I think that it could be accommodated in the current 
system.
    Senator Barrasso. Many of the proposals that address the 
threat of invasive species suggest that, aside from those few 
species that are exempted like pets and farm animals, there are 
thousands of perfectly safe non-native species and they are 
going to be blacklisted until a thorough scientific assessment 
can prove that they have no impact on the ecology of the United 
States. Is this the most prudent course of action?
    Mr. Hill. Well, one point is that it is very difficult to 
prove that a species will not have some impact onto a system. 
There is a lot of scientific uncertainty in this estimation. So 
that is one issue that plays into this.
    A blacklist approach, or a dirty list approach, seeks to 
really focus on those species that are problematic or likely to 
be problematic. They do not have to already be a problem to 
list a species. And we certainly have those. The State of 
Florida, for instance, uses an approach similar to this where 
species have been identified as potentially problematic. These 
are not species which are already introduced into Florida, 
these are species that may be in trade, or have been in trade 
in years past, but are not in the environment. And they been 
prohibited or placed on a conditional species list. So it is a 
workable type of solution.
    Senator Barrasso. Let me ask a question about an approved 
list and how that would play into this, because some of what 
might be some of the most damaging invasive species in the 
country are also popular pets. I am not talking about the boa 
constrictor that we saw, but popular house pets. How do you 
view that whole thing working out?
    Mr. Hill. Well, I tend to look at this from terms of risk 
and a risk analysis standpoint. When you go through a risk 
analysis, you assess risk and what are the bad things that 
these organisms may do. But then you also balance those risks 
during the management process to determine, do you still want 
to have those organisms and do you balance that risk against 
the benefits.
    There are a number of species that, from a purely 
scientific risk assessment standpoint, are clearly problematic. 
I am a dog person, but the domestic house cat is probably one 
of the No. 1 species in probably all the States, as being an 
invasive species when it is in the environment. Obviously, 
people love cats and they have societal and economic benefits. 
From a purely risk standpoint, cats are problematic. But when 
you put the management side to that, then cats would obviously 
be a banned species.
    Senator Barrasso. Director Humphries, if I could. We had 
Senator Levin here who gave great testimony, and he listed you 
as the expert from Michigan. He also said that his position in 
Michigan was the exact opposite of the position of, I think, 
the Michigan legislature. So, as the expert, can you tell all 
of us who is right and who is wrong?
    [Laughter.]
    Ms. Humphries. They are both right.
    [Laughter.]
    Senator Barrasso. Well, then we have a seat for you right 
up here.
    [Laughter.]
    Ms. Humphries. But I would like to respond that it is very, 
very difficult to screen risk, to screen organisms by risk, and 
rely on that solely. So, I caution all of us that, when we look 
at this, we also need to be nimble, to be able to address when 
one of these species or diseases crops up unexpectedly. Because 
it is going to go through a filter at some point in time, and 
we will have the unexpected. That is one to the things that the 
Fish and Wildlife Association has been trying to address, is 
making sure that we have both capacities and authorities across 
the United States to address these issues adequately.
    Senator Barrasso. Thank you, Mr. Chairman. No further 
questions.
    Senator Cardin. Well, thank you.
    Let me, if I could, Mr. Torgan, you talked about regional 
cooperation during your testimony. I think about our efforts on 
the Chesapeake Bay, which has been regional. We have been able 
to get all of the regional governments to work together on a 
strategy on the Bay and we could easily bring this subject into 
the debate and we have. It has been, I think, an effective way 
to deal with it.
    As I have listened to the testimony, I see an effort made 
by the Federal Government, working with the States on specific 
issue problems. I just really want to get your view, and 
perhaps others on the panel, as to whether we need to do more 
to empower regional approaches to dealing with these issues. 
Not just on a crisis basis, or not just where there is a 
popular effort that has been supported over a long period of 
time, such as the Chesapeake Bay, which has its challenges, but 
whether we need to try to institutionalize this in a more 
effective way.
    Mr. Torgan. Thank you, Senator. I think so. The 
Chesapeake's situation and the recent move by EPA to create a 
multi-State restoration and protection framework are unique to 
the Chesapeake. There is a similar effort now for the Great 
Lakes. And we have thought a lot about whether such an approach 
would work, for example, for New England or for the Mid-
Atlantic States.
    There are a lot of lessons that we could learn in Rhode 
Island from what you have accomplished in Maryland and in the 
Chesapeake Bay and many of these issues have parallel there. 
So, it does make sense to cooperate, collaborate and have 
synergy on that. Rhode Island is a small State, obviously, so 
our ability to manage and communicate on the State-wide level 
is good.
    The regional cooperation, the challenges of that have 
always had to do with the teeth of whatever regulations compel 
interstate partnerships. But we really believe, because these 
species do not respect State boundaries, and the issues are, if 
not national, then at least regional, that a regional approach 
that brings together States, Federal agencies and people 
involved on the ground in the universities and in the non-
profit, non-government community who are engaged in this, to 
work together for a solution. I think that is the only way to 
crack it.
    Senator Cardin. We, in this region, look at the Chesapeake 
Bay partnership with the Federal Government as an area of major 
national priority, but also a model that could be used in other 
parts of the country where you have multi-jurisdictional 
issues.
    Now the Great Lakes is the other area that is frequently 
mentioned as where you need to have multiple jurisdictional 
impact if you are going to be able to have effective results. 
And ,of course, you are also dealing with another country. How 
do the Great Lakes manage the governmental challenges of 
multiple levels?
    Ms. Humphries. Well, the Great Lakes certainly is a 
difficult situation because, as you say, you have a number of 
political boundaries in there and countries. But, nonetheless, 
we get scientists together, as well as policymakers, through 
the Great Lakes Commission, the Great Lakes Fisheries 
Commission, to set priorities and help address these issues, 
including the science on those issues with research priorities. 
It has worked very well for us.
    There are a number of other models when you look around the 
country with this regional approach. The Southeast Disease 
Cooperative was established back in the 1950s, where 
Southeastern States in the United States banded together in 
order to develop a scientific approach to address deer 
population problems that were occurring in that area. That 
model is still in place.
    So, I think there are a number of different models and I 
have appended some of those within the Initiative that I 
attached to my testimony. They will give you some ideas of some 
these regional approaches. They are, I think, the most 
effective in the fact that you have partners coming together 
and talking about the specific risks in those areas. And also 
some of the cultural things that you need to change with your 
citizens to address the risk out there.
    Senator Cardin. I know that Senator Levin is working on a 
reauthorization under the Clean Water Act of the Great Lakes. 
We are working on the Chesapeake Bay reauthorization, looking 
for more effective ways to enforce the goals that are 
established by the local governments. Because we want to make 
sure there is not only a partnership with the Federal 
Government, but that there is reasonable expectation that we 
can achieve the goals that we set. We will be working with all 
of you in that regard.
    Senator Barrasso, anything further?
    Senator Barrasso. No.
    Senator Cardin. Well, let me thank our witnesses again for 
their testimony and for their participation at this hearing. 
This has been a very interesting hearing for, I think, the 
members as well as an educational one for the Chairman.
    Thank you all very much.
    [Whereupon, at 12:08 p.m., the subcommittees were 
adjourned.]
    [Additional statements submitted for the record follow:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Good morning. I would like to first welcome Senators Levin 
and Nelson, who I know care greatly about the topic of this 
hearing this morning. I think that the protection of our native 
wildlife from harmful invasive species should receive increased 
Federal attention. I would like to thank the subcommittee 
Chairmen for holding this important hearing on potential 
threats non-native species pose to native wildlife in this 
country. However, as we chart a course of action we must be 
prudent and avoid prematurely banning species that pose no 
threat to the environment.
    I understand that the House of Representatives had a 
similar hearing on this topic in April, in which a specific 
legislative proposal--H.R. 669--was examined to address the 
threats of invasive species. It is also my understanding that 
this legislation received widespread criticism for casting too 
wide a net on pets, sports fishing and other species that 
generate billions of dollars in our economy with no 
demonstrated threat to the environment. I realize that this 
hearing will not be examining a specific piece of legislation, 
which I must say makes me skeptical, considering this 
committee's habit of marking up bills without a legislative 
hearing on the specific proposal--especially one that could put 
in place a new, cumbersome bureaucratic process for examining 
the threats without consideration of effective laws already on 
the books.
    Common sense reforms are needed to prevent the importation 
or breeding of species that would be harmful to our ecosystem; 
however, these reforms must avoid placing burdensome 
requirements on the retail and agriculture industries and 
sportsmen. I appreciate the efforts of environmental groups, 
mainly the Defenders of Wildlife, in attempting to address the 
threat posed by non-native species, but I am concerned that 
their proposal could harm important sectors of our economy.
    Any policy that Congress considers should include a 
reasonable risk analysis process that would take into 
consideration risk management options for controlling non-
native species. It should not adopt a policy that automatically 
bans species until proven safe. Acknowledging similar risk 
management processes that are used elsewhere in Federal 
agencies would effectively address the issue at hand. We don't 
need legislation that bans species that we know are safe. 
Invasives legislation should use existing scientific evidence 
without requiring industries to unnecessarily spend resources 
and time completing scientific testing that tells us what we 
already know: the vast majority of non-native species in the 
United States are safe and present little or no harm to their 
surroundings.
    Thank you. I look forward to hearing from our witnesses.

                  Statement of Hon. Bernard Sanders, 
                 U.S. Senator from the State of Vermont

    I am pleased that the Environment and Public Works 
Subcommittees on Oversight and Water and Wildlife are holding 
today's hearing to discuss threats to native species. In 
Vermont we face several such threats, and two in particular I 
want to highlight.
    Our bats, and bats across the Northeast, are increasingly 
susceptible to death from white-nose syndrome. White-nose 
syndrome appears to be a fungus that turns their noses and 
bodies white and kills with a mortality rate of between 90 and 
100 percent in some caves. More than 1 million hibernating bats 
have died over the past 2 years. Bats prey on harmful insects 
such as mosquitoes which spread disease, and moths and beetles 
which damage crops. Bats reduce the need for pesticide use and 
are beneficial for the environment.
    On May 5th of this year I signed a letter along with 24 of 
my colleagues in the Senate and the House asking the Department 
of the Interior to provide emergency fiscal year 2009 funding 
to respond to this crisis. Summer research is critical to stop 
the spread of this disease and develop a cure.
    In addition I want to highlight another invasive species 
threat that deserves the attention of scientists and the 
Administration. That is the threat from the Asian longhorned 
beetle. This beetle uses maple trees as a host. Vermont leads 
all States in maple syrup production, producing 920,000 gallons 
in 2009 and creating millions of dollars in value for Vermont's 
economy. I ask that the Administration work with State and 
local officials in Vermont and put the appropriate resources 
into finding solutions to the spread of Asian longhorned 
beetles.

    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 
                        [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
